<html>
<title> - HIGHER EDUCATION ACT: INSTITUTIONAL SUPPORT FOR COLLEGES AND UNIVERSITIES UNDER TITLE III AND TITLE V</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                  HIGHER EDUCATION ACT: INSTITUTIONAL
                 SUPPORT FOR COLLEGES AND UNIVERSITIES
                      UNDER TITLE III AND TITLE V

=======================================================================

                             FIELD HEARING

                               before the

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                HEARING HELD IN AUSTIN, TX, JUNE 4, 2007

                               __________

                           Serial No. 110-43

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
35-464                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS


                    RUBEN HINOJOSA, Texas, Chairman

George Miller, California            Ric Keller, Florida,
John F. Tierney, Massachusetts         Ranking Minority Member
David Wu, Oregon                     Thomas E. Petri, Wisconsin
Timothy H. Bishop, New York          Cathy McMorris Rodgers, Washington
Jason Altmire, Pennsylvania          Virginia Foxx, North Carolina
John A. Yarmuth, Kentucky            John R. ``Randy'' Kuhl, Jr., New 
Joe Courtney, Connecticut                York
Robert E. Andrews, New Jersey        Timothy Walberg, Michigan
Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware
Susan A. Davis, California           Mark E. Souder, Indiana
Danny K. Davis, Illinois             Vernon J. Ehlers, Michigan
Mazie Hirono, Hawaii                 Judy Biggert, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 4, 2007.....................................     1

Statement of Members:
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........     1
        Prepared statement of....................................     2
        Additional materials submitted:
            Bassham, Kathy, president, Texas Association of 
              Student Financial Aid Administrators (TASFAA)......    49
            McMillin, Sue, president and CEO, Texas Guaranteed 
              Student Loan Corporation (TG)......................    46

Statement of Witnesses:
    Earvin, Dr. Larry, president, Huston-Tillotson University....    22
        Prepared statement of....................................    24
    Kinslow, Dr. Stephen B., president/CEO of Austin Community 
      College District...........................................     7
        Prepared statement of....................................    10
    Paredes, Dr. Ray, commissioner, Texas Higher Education 
      Coordinating Board.........................................    50
    Scott, George A., Director, Education, Workforce and Income 
      Security Issues, U.S. Government Accountability Office.....    13
        Prepared statement of....................................    15
    Vanegas-Funcheon, Olivia, president, Tohono O'odham Community 
      College....................................................    30
        Prepared statement of....................................    31
        Additional material submitted:
            Prepared statement of the American Indian Higher 
              Education Consortium (AIHEC).......................    34
            Tohono O'odham Community College press release.......    36
            Tohono O'odham Community College grants table........    37


                  HIGHER EDUCATION ACT: INSTITUTIONAL
                 SUPPORT FOR COLLEGES AND UNIVERSITIES
                      UNDER TITLE III AND TITLE V

                              ----------                              


                          Monday, June 4, 2007

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                 Lifelong Learning, and Competitiveness

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Multipurpose Hall, Library Sciences Building, Building 9000, 
Austin Community College, 3401 Webberville Road, Austin, Texas, 
Hon. Ruben Hinojosa [chairman of the subcommittee] presiding.
    Present: Representative Hinojosa.
    Also Present: Representative Grijalva.
    Staff Present: Ricardo Martinez, Policy Advisor for 
Subcommittee on Higher Education, Lifelong Learning and 
Competitiveness; and Ana Ma, Senior Counsel to Representative 
Grijalva.
    Chairman Hinojosa. A quorum is present. The hearing of the 
subcommittee will come to order.
    Pursuant to committee Rule 12, any member may submit an 
opening statement in writing, which will be made part of the 
permanent record. Without objection, all members will have 14 
days to submit additional materials or any questions for the 
hearing record.
    Before going into the rules that we are going to use this 
morning for this Congressional field hearing, I want to 
exercise point of privilege, that it is a great feeling to come 
back to Austin, my alma mater, and to be able to see so many 
friends with whom I came to school with and worked with the 10 
years that I served on the Texas State Board of Education.
    One in particular is the former Mayor Gustavo Garcia. Gus 
and I go back to 1972 when both of us were both elected to the 
local School Board, he in Austin and I in Mercedes. And we 
attended an orientation program that very first year, and we 
wanted to know a little bit more about bilingual education, 
which was a new legislative mandate here in Congress--in 
Austin. Forgive me for saying ``Congress,'' but the Texas 
legislature.
    And so we were introduced and were invited to each lunch 
with a group of leaders from--state leaders, and we found out 
that we had very similar concerns about public education and 
interest in trying to do something about it, to try to make a 
measurable difference.
    And so we became friends as advocates for education for the 
last more than three decades, and it is a pleasure, Mayor 
Garcia, to see you visiting us this morning, and to be able to 
see the continuing interest that you have in education. I can 
tell you that I have spoken to a lot of leaders from this area, 
and they speak very highly of you, of your continuing 
involvement in the community, not only in education but all of 
the issues important to this area, the economy, and I know that 
as a CPA you certainly know how that works.
    But also, in health care and immigration and all of the 
issues that are being discussed in Washington, and to hear that 
you are so well informed makes me feel--continue to feel very 
proud to say that I am a friend of Mayor Gus Garcia. Please 
give him a big round of applause. [Applause.]
    For those of you who have not testified before this 
subcommittee, let me explain our lighting system and the five-
minute rule. Everyone, including members, is limited to five 
minutes of presentation or questioning. The green light is 
illuminated when you begin to speak. When you see the yellow 
light, it means you have one minute remaining. When you see the 
red light, it means your time has expired and you need to 
conclude your testimony.
    Please be certain as you testify to turn on and speak into 
the microphones in front of you, so that all of the statements 
can be recorded for the permanent record.
    We will now hear a few of the questions--not questions 
necessarily, but statements that are going to be--that will be 
given and the introductions I will follow--will follow 
introductions of the witnesses.
    Good morning, and welcome to the Subcommittee on Higher 
Education, Lifelong Learning, and Competitiveness hearing on 
the Higher Education Act and institutional support for colleges 
and universities under Title III and Title V.
    I would like to thank our hosts at Austin Community 
College. President Kinslow, and the Austin Community College 
staff, and Board of Directors, and the community have shown us 
tremendous hospitality. It is a privilege to hold this 
important Congressional hearing on your campus.
    I would like to also thank my good friend and colleague 
Congressman Raul Grijalva of Arizona for joining us in Austin 
today. A member of the full Education and Labor Committee, 
Congressman Grijalva is a guest member of our subcommittee 
today. It is a measure of his genuine commitment to access to 
higher education for low income and minority students that he 
has traveled to Texas to participate in this public hearing.
    Thank you, Congressman Grijalva.

 Prepared Statement of Hon. Ruben Hinojosa, Chairman, Subcommittee on 
        Higher Education, Lifelong Learning, and Competitiveness

    Good Morning. Welcome to the Subcommittee on Higher Education, 
Lifelong Learning, and Competitiveness hearing on the Higher Education 
Act and Institutional Support for Colleges and Universities under Title 
III and Title V.
    I would like to thank our hosts at Austin Community College. 
President Kinslow and the Austin Community College staff and community 
have shown us tremendous hospitality. It is a privilege to hold this 
hearing on your campus.
    I would like to also thank my good friend and colleague Congressman 
Ra#l Grijalva of Arizona for joining us in Austin today. A member of 
the full Education and Labor Committee, Congressman Grijalva is a guest 
member of our subcommittee today. It is a measure of his commitment to 
access to higher education for low-income and minority students that he 
has traveled to Texas to participate in this hearing. Thank you, 
Congressman Grijalva.
    Today's hearing is our fifth subcommittee hearing in preparation 
for the reauthorization of the Higher Education Act. We have looked at 
the scale of the challenge to produce the college graduates our economy 
needs to remain globally competitive. We have considered how well we 
are preparing our next generation of college students. We have 
discussed how low and middle-income families finance college and the 
critical role of student financial aid. We have focused on teacher 
preparation and the vital role that our institutions of higher 
education play in equipping our teachers to deliver high quality 
instruction to all of our students--especially those in high need 
public schools. Today, we will discuss how the Higher Education Act 
supports the key institutions that are the gateways of access to higher 
education for low-income and minority students.
    Title III and Title V of the Higher Education Act provide grants 
for institutional development and capacity building for colleges and 
universities that serve high populations of low income and minority 
students with low resources compared to other institutions. These 
titles include specific programs for Tribally-controlled colleges and 
universities, Historically Black Colleges and Universities, Native 
Alaskan and Native Hawaiian-Serving Institutions, and Hispanic-Serving 
Institutions.
    For an annual federal investment of a little over $500 million, we 
provide support to over 670 institutions. These are the colleges and 
universities that award 30 percent of the bachelors' degrees earned by 
African American students and enroll 47 percent of Hispanic students. 
They are engines of economic development for their communities.
    These institutions are only going to grow in their importance for 
ensuring that our nation continues to have enough college graduates to 
fill the jobs in our knowledge-based economy. The 2007 Condition of 
Education reports that 42 percent of our public school children are 
racial or ethnic minorities--one in five is Hispanic.
    These students face many challenges: 70 percent of black 4th 
graders, 73 percent of Hispanic 4th graders, and 65 percent of Native 
American fourth graders are eligible for free and reduced priced 
lunches. These students are also concentrated in our highest poverty 
public schools where over 75 percent of the students are from low-
income families.
    These schools are the focus of the No Child Left Behind Act. They 
are the feeder schools to our Title III and Title V institutions.
    During the reauthorization of the Higher Education Act, we have the 
opportunity to further strengthen and expand the capacity of the 
institutions that will be increasingly called upon to prepare our next 
generation of teachers, scientists, engineers, doctors, lawyers, and 
other professionals.
    For HSIs, we will continue to focus on enacting the provisions of 
H.R. 451, the Next Generation Hispanic-Serving Institutions Act, to 
create a graduate program at Hispanic--Serving Institutions. This has 
been a long-standing priority for me and other members of the 
Congressional Hispanic Caucus. We also stand in solidarity with our 
colleagues to support efforts to strengthen all of the developing 
institutions programs.
    I would like to thank you witnesses for joining us today. We are 
eager to here your recommendations on how we can improve and expand 
programs for Title III and Title V institutions.
    Thank you and I now recognize my good friend and colleague Ra#l 
Grijalva for opening remarks.
                                 ______
                                 
    Mr. Grijalva. You are welcome, sir.
    Chairman Hinojosa. Today's hearing is our fifth 
subcommittee hearing in preparation for the reauthorization of 
Higher Education Act, which takes place every six years. 
Unfortunately, the 108th and the 109th Congress were unable to 
finish it and get it into public law for many reasons.
    But it is the 110th Congress, of which I happen to be the 
Chairman of Higher Education, that has the opportunity to try 
to get it done, and, if so, I believe will make some important 
amendments to the Education Code and make changes that will 
improve the two big umbrellas of accessibility and 
affordability of higher education.
    We have looked at the scale of the challenge to produce the 
college graduates our economy needs to remain globally 
competitive. We have considered how well we are preparing our 
next generation of college students. We have discussed how low 
and middle income families finance college and critical role of 
student financial aid.
    We have focused on teacher preparation and the vital role 
that our institutions of higher education play in equipping our 
teachers to deliver high quality instruction to all of our 
students, especially those in high-need public schools.
    Today, we will discuss how the Higher Education Act 
supports the key institutions that are the gateways of access 
to higher education for low income and minority students. Title 
III and Title V of the Higher Education Act provide grants for 
institutional development and capacity building for colleges 
and universities that serve high populations of low income and 
minority students with low resources compared to other 
institutions.
    These titles in the Education Code include specific 
programs for tribally controlled colleges and universities, for 
historically black colleges and universities, for Native 
Alaskan and Native Hawaiian-serving institutions, and for 
Hispanic-serving institutions.
    For an annual federal investment of a little over $500 
million, we provide support to approximately 670 institutions. 
I repeat that. Approximately $500 million are available, and 
the President hopes that your college system will be approved 
and designated as an HSI by the fall of 2007.
    These are the colleges and universities that award 30 
percent of the bachelor's degrees and associate degrees earned 
by African-American students and enroll 47 percent of Hispanic 
students. They are the engines of economic development for 
their communities.
    These institutions are only going to grow in their 
importance for ensuring that our nation continues to have 
enough college graduates to fill the jobs of our knowledge-
based economy. The 2007 Condition of Education Report said 42 
percent of our public school children are racial or ethnic 
minorities. One in five is Hispanic. These students face many, 
many challenges.
    Seventy percent of black fourth graders, and 73 percent of 
Hispanic fourth graders, and 65 percent of Native American 
fourth graders are eligible for free and reduced price lunches. 
These students are also concentrated in our highest poverty 
public schools where over 75 percent of the students are from 
low income families. These schools are the focus of the No 
Child Left Behind Act. They are the feeder schools to our Title 
III and Title V institutions.
    During the reauthorization of the Higher Education Act, we 
have the opportunity to further strengthen and expand the 
capacity of these institutions that will be increasingly called 
upon to prepare our next generation of teachers, scientists, 
engineers, doctors, lawyers, and other professionals. For HSIs, 
we will continue to focus on enacting the provisions of H.R. 
451 entitled ``The Next Generation Hispanic-Serving 
Institutions Act'' to create a graduate program at Hispanic-
serving institutions.
    This has been a long-standing priority for me, and other 
members of the Congressional Hispanic Caucus. We also stand in 
solidarity with our Congressional colleagues to support efforts 
to strengthen all of the developing institutions programs.
    I would like to thank you, the witnesses who are seated 
before us. We thank you for joining us today. We are eager to 
hear your recommendations on how we can improve and expand 
programs for Title III and Title V institutions.
    Thank you. And I now recognize my good friend and colleague 
Raul Grijalva for his opening remarks.
    Mr. Grijalva. Thank you, Mr. Chairman. I appreciate very 
much the opportunity and the invitation to join with you at 
this hearing and look forward to the witnesses' perspectives on 
these very important Title III/Title V discussions that we are 
going to have in this reauthorization for higher ed.
    Your experience and your perspectives are vital, and we are 
talking about historical commitments and historical presence. I 
think that is an important discussion as we move forward, and, 
as the Chairman said, to add capacity and resources to that 
effort. We are talking about an emerging college in a native 
land, in Indian country. That is a new experience but a very 
vital and necessary experience.
    And we are talking about a large, system-wide institution 
that is at the doorstep of making a commitment in the future to 
serving with greater capacity the diversity of this community. 
And so those are good perspectives, and I am looking forward to 
it.
    Let me just say that there is a lot of--people can go back 
and forth on this issue of what do we do about the future, but 
the future is tied to how we preparation a generation to come. 
And in that preparation, I think everybody has gotten to the 
point where you need to, if not out of an acceptance of fact in 
science, and out of an acceptance of necessity, is that the 
face of America is changing.
    And with that demographic change comes an additional 
responsibility to prepare that young, upcoming generation of 
people, be they poor, be they middle class, be they of color. 
And the emphasis of these two titles is exactly that--to 
provide access and to deal with the hard questions of 
affordability.
    I am glad to join with you. I want to reiterate what the 
Chairman said. We have a great opportunity this year. You know, 
the Chairman gave me more credit than I deserve about taking 
the trip from Tucson to here. The Chairman has a really subtle 
way of saying, ``Raul, we are going to be talking about Title 
III and Title V. I know how much you care about that. We will 
be having a hearing on this date, and I sure wish you could 
make it.'' Well, after that, what do you say? [Laughter.]
    And, no, I sincerely wanted to be here. But it is about 
increasing capacity, it is about resources, and it is about the 
future. And this reauthorization under the leadership of our 
Chairman, which couldn't come at a better time and a better 
person in charge because of perspective and the understanding 
that this is not a cookie cutter anymore, this is about 
integrating. And I am happy for that.
    So I don't have the connections the Chairman has to Austin, 
and I was telling someone all I know is that sometime in 
college I lost about four and a half days here. [Laughter.]
    So thank you very much. [Laughter.]
    Chairman Hinojosa. Thank you, Congressman Grijalva. I want 
to say that this is a small world, because I served on the 
Texas State Board of Education for 10 years, from '74 to '84, 
and would come once a month for four, maybe five days, and 
Gustavo, our Mayor, former Mayor, invited me to meet someone 
whom he said could teach us both a great deal about public 
education, since we were both were working for that, but also 
to introduce us to higher education and the needs--Dr. Alfredo 
De La Santos, who was then Vice Chancellor of Maricopa County 
Community College, and that, of course, happens to be in 
Congressman Grijalva's area of Arizona.
    And so we became best of friends, Dr. Alfredo and Mayor Gus 
and myself for all these three decades. And Alfredo took me to 
visit what Newsweek called the ``Best Community College System 
in the Country--Maricopa County Community College System.'' And 
that was when it was only a dream to create a community college 
down in the Rio Grande Valley where unemployment had been 
double digit rate for three decades.
    And so Alfredo made it possible for a visitation team to 
come visit in Phoenix, Arizona, and that is where I removed my 
blinders to see the potential in community colleges and how 
they could give us a trained workforce that would attract 
businesses, and thus try to reduce that double digit 
unemployment rate in South Texas.
    And, ladies and gentlemen, I was saying to the witnesses 
before we started that when you combine a community college and 
a university, or several of them, with corporate America, it is 
unbelievable what can be done. And if you have the input of the 
community to support it, and to tax themselves so that there 
will be community college money raised through taxes, plus the 
city and the state and the federal government.
    It can do what I have witnessed these 10 years, and that is 
to see South Texas explode in population to 1-1/4 million 
people when you combine the four counties, and to see the 
unemployment rate drop in just eight years to 6 percent.
    So what we are doing today is something that is very 
important to the whole country, and the models that are done in 
Austin and throughout the country, including South Texas, are 
those models that are being taken to Mississippi and other 
regions of the country that need a great deal of help.
    It is my pleasure now to introduce the witnesses who will 
speak today, and I will introduce all of them and then start 
with the first one to give their presentation. Dr. Stephen W. 
Kinslow, our host today, is also the President of Austin 
Community College. He previously served ACC in various 
administrative posts before being appointed President in 2005.
    Prior to ACC, he worked for the Dallas Community College 
District and also was a public school teacher in Big Spring, 
Texas. He earned a Ph.D. from the University of Texas in 
Austin, as well as a master's degree from Southern Methodist 
University and a bachelor's degree from the University of Texas 
at Arlington.
    The second witness will be Mr. George Scott. He is the 
Director of Education, Workforce, and Income Security Issues at 
the General Accounting Office in Washington, D.C. He has over 
19 years of public service and is a familiar witness in our 
subcommittee. His assignments include many issues within the 
jurisdiction of the Committee on Education and Labor.
    The GAO is located in Washington, D.C., and I welcome you 
to this field hearing to my home State.
    The third presenter will be Dr. Larry Earvin. He is 
President of Huston-Tillotson University here in Austin. He has 
served as President for seven years, and prior to that he held 
various faculty and administrative positions at Clark Atlanta 
University in Georgia. He has a Ph.D. from Emory University, a 
master's of science from Georgia State University, and he 
earned a bachelor's degree from Clark College.
    Thank you for coming today.
    Let me let Mr. Grijalva introduce the final witness.
    Mr. Grijalva. Thank you very much, Mr. Chairman. It is my 
pleasure to introduce Ms. Olivia Vanegas-Funcheon, President 
and CEO of the Tohono O'odham Community College, that nation's 
first institution of higher learning.
    The college was--correct me if I am wrong--1998 was the 
inception of the college. Our witness has been with the college 
since 2000, and in 2005 assumed the Presidency and CEO of that 
college--a great fit for this community college that is 
emerging and growing as we speak, great background working from 
some of the major corporations in this country, in the private 
sector.
    A bachelor's degree from Arizona State University, MBA, 
specialized coursework at Stanford and Harvard, and I think 
what is really important is an awesome person to have the 
connection, the cultural, spiritual, linguistic, and community 
connections that are so vital to the development of this 
community college on the reservation.
    And I am proud to call her a friend, and proud of the 
achievements that the nation and the college have been going 
through the last few years. Congratulations.
    And with that, Mr. Chairman, I turn it back.
    Chairman Hinojosa. Thank you, Congressman Grijalva.
    Now we will go into the testimony, and I ask Dr. Kinslow to 
please start.

    STATEMENT OF DR. STEPHEN W. KINSLOW, PRESIDENT, AUSTIN 
                       COMMUNITY COLLEGE

    Mr. Kinslow. Thank you, Chairman Hinojosa, and Congressman 
Grijalva, and also distinguished guests and friends of Austin 
Community College.
    As President of the Austin Community College District, or 
ACC, it is my pleasure to speak with you today regarding the 
critical role that community colleges play in educating the 
nation's traditionally underserved populations, especially 
minority, low income, and first generation college students.
    ACC has been serving Central Texas since the early 1970s, 
and much has changed about community colleges and the 
recognition that they now receive. First, is that community 
colleges, as the Chairman mentioned, are perceived and 
recognized now as the gateway to higher education for over half 
of all high school graduates and over half of all adults who 
choose to enter higher education.
    We are the primary provider of university transfer students 
to the nation's four-year colleges and universities. We are the 
primary trainer and retrainer of the local workforce.
    Many people do not also understand that we are accredited 
by the same agencies that govern the standards for four-year 
colleges and universities, and we produce a high quality 
student from our institutions. We embrace an open door policy, 
which means in essence no one who can benefit from higher 
education and training is turned away from our doors. Instead, 
we offer multiple avenues for students to obtain the skill 
levels necessary to be successful in achieving their goals.
    Community colleges, however, are also challenged, partly 
from the broad mission to serve all, partly from the fact that 
we have different funding mechanisms than four-year colleges 
and universities, and especially because of the enormous 
diversity of students that the open door admissions philosophy 
brings to our institutions.
    At ACC, our students range in age right now from 17 to 70. 
They bring great diversity in their college readiness skills. 
And, most importantly, they increasingly come from 
traditionally underserved populations.
    ACC's mission is to meet the needs of the diverse and 
rapidly changing demographics of our society through provision 
of general education and core curriculum for transfer-bound 
students through workforce training in high demand careers such 
as health care, through access of developmental programs to 
assist those who are not yet college ready, and to provide 
adult education for a growing segment of the adult population, 
and also to foster and sustain extensive community and 
independent school district outreach programs which help to 
create a college-going culture and a college-going expectation 
among our society.
    According to the U.S. Census, Texas is a majority minority 
State, with Hispanics representing the fastest-growing segment 
of the population. To illustrate that, from 1990 to 2005, the 
Hispanic population in Texas nearly doubled and is currently at 
7.9 million. In Central Texas, those numbers are just as 
telling. Hispanics make up nearly 60 percent of the regional 
local school districts in our eight-county service area.
    While we are fortunate to have a very diverse student 
population, we are also keenly aware that the fastest growing 
demographic groups are those with traditionally lower high 
school graduation rates and lower participation rates in higher 
education. If we don't change those two realities and close the 
gap, simply put, our State is headed for a crisis.
    Texas risks not having enough educated, highly skilled 
workers to meet the needs of business and industry. Providing 
access to affordable higher education is the solution to those 
challenges. Increasing access and affordability to higher 
education will increase the number of college graduates and 
trained workers in our region and across this country.
    That will lead to an expansion of business and industry, 
which leads to better jobs, which leads to higher wages that 
people earn, which leads to higher consumer spending, which 
benefits business and industry in local areas. And, most 
importantly, it leads to a more equitable distribution to local 
tax bases and to decreased needs for social services. Education 
is the power that changes lives and changes communities.
    Texas is addressing its challenges through an initiative 
referred to as ``closing the gaps,'' the goal being to enroll 
over 630,000 additional students into higher education by 2015. 
For ACC as that primary gateway to higher education, that means 
our institution will grow to over 40,000 students by 2015, and 
by 2020 we look forward to being larger than UT-Austin. 
[Laughter.]
    To illustrate some our success in closing the gaps, I will 
share with you that from fall 2001 to fall 2006, our college 
enrollment increased over 14 percent. And of that large 
increase in enrollment, 31 percent represented an increase in 
Hispanic students.
    It is most dramatic, however, to focus on the last two fall 
semesters at our institution where our Hispanic enrollment has 
grown 17-1/2 percent, and our African-American enrollment has 
grown 16-1/2 percent.
    Chairman Hinojosa. Mr. President, I am going to yield an 
extra two minutes for you to try to bring----
    Mr. Kinslow. Thank you.
    Chairman Hinojosa [continuing]. Closure to your statement.
    Mr. Kinslow. Thank you.
    Chairman Hinojosa. But know that the entire statement will 
be made a part of the record.
    Mr. Kinslow. Thank you. I appreciate that. I will share 
very briefly a successful program that has helped us achieve 
those increases in Hispanic and African-American enrollments. 
It is called the College Connection Program in which we export 
to now 22 school districts within the eight-county region all 
of the admissions and financial aid and college and career 
exploration activities from our campuses to high school 
campuses.
    Students graduate with their high school diploma, cross the 
stage, get their diploma, and an acceptance letter to ACC, and 
are electronically already in our system. They can go to their 
phone or web to enroll immediately. Many of those graduates 
also exit having already earned early college start dual credit 
through our institution.
    We think that those programs are examples of things that 
can be ramped up when we achieve our HSI status. We want to 
take that program and many of our summer youth and bridge 
programs and dramatically increase, as you were alluding to, 
the capacity to touch more lives with the assistance of Title V 
funding.
    With that, I wanted to acknowledge one student who is in 
the audience this morning, Ehrma Apolinar, who is one of our 
GED students. She arrived a little bit late, because she was 
taking a test this morning, but she is an example of the 
changing face of America. Born in Mexico, one of 11 children, 
at 15 she married and had a child, later dropped out of school 
to help support her family. Sixteen years later she entered 
ACC.
    She is a recent graduate of our GED program. She is 
attending college credit classes now with the Texas Association 
of Chicanos and Higher Education Scholarship and plans to 
attend a four-year college when she completes her studies here.
    There are thousands of examples of student success stories 
such as Ehrma, not only at ACC but at community colleges across 
the State of Texas and across the nation. So we appreciate the 
opportunity to speak to you this morning. We are highly honored 
to be able to host this Congressional hearing. Thank you very 
much. [Applause.]
    [The prepared statement of Dr. Kinslow follows:]

 Prepared Statement of Dr. Stephen B. Kinslow, President/CEO of Austin 
                       Community College District

    Chairman Hinojosa and distinguished members of the Subcommittee: 
Good morning.
    As president of the Austin Community College District, or ACC, it 
is my pleasure to speak with you today regarding the critical role 
community colleges play in educating the nation's traditionally 
underserved populations, especially minority, low income, and first 
generation college students.
    ACC is on the verge of becoming eligible for Hispanic-Service 
Institution status and as you will see, the funding provided under 
Title V is desperately needed.
    ACC has been serving Central Texas since 1973. Since then a lot has 
changed. Community colleges are now the primary gateway to higher 
education and training for more than 50 percent of all who enter 
college, whether they are recent high school graduates or adults. 
Community colleges are also the primary provider of transfer students 
to four-year colleges and universities.
    As the members of this committee are keenly aware the United States 
is competing in a global market, demand for highly skilled workers is 
on the rise, and our nation's future economic development is more 
dependent than ever on community colleges.
    While community colleges meet the same accreditation standards as 
four-year colleges and universities, they are different. There is an 
``open door'' policy. Rather than turn away people who may not have the 
prerequisites for college level work, the community college offers 
avenues for students to obtain the necessary skill levels. Community 
colleges are challenged by a broad mission, different funding 
mechanisms, and by the enormous diversity of students the ``open door'' 
welcomes.
    At ACC, our students range in age from 17 to 70, they have a huge 
variety of academic goals, are at different levels of college 
readiness, and increasing come from traditionally underserved 
populations. It is our mission, as a community college, to meet the 
needs of the diverse and rapidly changing demographics of our society 
through:
    <bullet> General education or core curriculum for transfer-bound 
students
    <bullet> Workforce training in high-demand careers, such as nursing
    <bullet> ``Access'' or ``developmental'' programs to assist those 
who are not yet ``collegeready.''
    <bullet> Adult Basic Education for adults who need help with 
writing, reading or math, GED preparation and English-as-a-Second 
Language.
    <bullet> Extensive community outreach programs that create a 
college going culture
    According to the U.S. Census, Texas is a majority-minority state, 
with Hispanics representing the fastest growing segment of the 
population. From 1990 to 2005, the Hispanic population almost doubled 
in size, reaching 7.9 million. In Central Texas, the numbers are just 
as telling, with Hispanics making up nearly 60 percent of the local 
school district.
    While we are fortunate to have a diverse population, we also are 
keenly aware that the fastest growing demographic groups are also those 
with lower high school graduation rates and lower participation rates 
in higher education. Just as the need for an educated workforce is 
increasing, the number of students enrolling in higher education is 
falling.
    If we don't ``close the gap,'' simply put, we are headed for a 
crisis.
    Texas risks not having enough educated, highly-skilled workers to 
meet demand, creating a disincentive for existing businesses to expand, 
pushing new industries away, and leaving residents with fewer dollars 
in their pocket. The economy will be hit hard.
    <bullet> The state will lose jobs
    <bullet> Citizens will earn & spend less money
    <bullet> There will be fewer contributors to the local tax base
    <bullet> And, social services costs will continue to increase.
    In contrast, by providing access to affordable higher education, 
community colleges are able to help students find better jobs, earn 
higher wages, spend more, and contribute more equitably to the local 
tax base. Increasing the number of college graduates and trained 
workers helps reduce pressure on social services.
    Providing access to affordable higher education is a MUST!
    The State of Texas is addressing these challenges through its 
Closing the Gaps initiative to enroll an additional 630,000 students 
into higher education by 2015. For the ACC District this means 
increasing enrollment from 33,000 to nearly 40,000 by 2015.
    And, we are pleased to report that the ACC District is successfully 
meeting these goals, but we also need the help of good government 
policy to continue to reach more traditionally underserved populations.
    <bullet> From fall 2001 to fall 2006, ACC's overall enrollment 
increased 14% with
    <bullet> A 31% increase in Hispanic students
    <bullet> From fall 2000 to fall 2006, the number of Hispanic 
graduates increased 60%
    <bullet> The ACC District is less than 1% point away from being 
designated a Hispanic Serving Institution
    The increase in enrollment is partly due to an innovative, 
proactive program called College Connection. Implemented in 2004, the 
ACC District program delivered college assessment, admissions, and 
financial aid services to area high schools, giving seniors individual 
assistance for transitioning to college. One year after it began, ACC 
experienced a 37% increase in college attendance among high school 
graduates, particularly those from traditionally underserved 
communities. The success of College Connection has garnered national 
media attention. ACC received the Star Award from the Texas Higher 
Education Coordinating Board and a national Bellwether Award.
    College Connection is now offered in 22 school districts within the 
ACC District Service Area. Considered a statewide model by the Texas 
Higher Education Coordinating Board for establishing a college-going 
culture among Hispanics and other ethnic minorities, more than a dozen 
community colleges have implemented similar programs across the state 
and the nation. Maine and Florida have adopted statewide initiatives 
modeled after ACC College Connection.
    Engaging high school students early is also crucial to successfully 
increasing enrollment among Hispanics. The ACC District's Early College 
Start program gives high school juniors and seniors the opportunity to 
earn up to a year's worth of college credit -at little to no cost--
before they graduate! For the college's tax paying residents, Early 
College Start is free; for those outside of the district, the dual 
credit classes are only $40 each. And it's working! Nearly half (46%) 
of Early College Start students enroll at ACC within two years after 
high school graduation.
    The college's outreach extends well beyond high school and into the 
elementary and middle school years. ACC's Summer Youth Programs provide 
fun, educational opportunities for children of all ages to improve 
their math and science skills, explore careers, and see first-hand what 
a college campus is like.
    Noelle Hernandez, a current ACC student, is living proof that early 
engagement is the key to closing the gap between Hispanics and higher 
education. She enrolled in ACC's Summer Youth Program in 5th grade and 
returned several years later as a camp volunteer. Noelle has stated 
often that had it not been for this opportunity, she might not have 
ever considered college an option. She is now well on her way to 
receiving an associate degree in Commercial Music Management and plans 
to transfer to the University of Texas.
    In line with the unique mission of community colleges, the ACC 
District also provides programs for adults that help them overcome 
barriers to higher education. Through our Adult Basic Education 
program, English-as-a-Second Language and GED classes are provided free 
of cost. These programs are increasingly bridging the gap to higher 
education for Hispanics. In fall 2006, more than 50% of ACC's GED 
graduates returned to the college to pursue college credit courses as 
the result of our Adult Education College Connection Program.
    One of our GED students is here with us today. Irma Apolinar was 
born in Mexico City, one of 11 children who grew up in a hard working 
family where higher education was not an option. The family moved to 
the U.S., at the age of 15, Irma got married, had a child, and dropped 
out of school to help make ends meet. Her baby is now 16, she is a U.S. 
citizen, and just recently returned to school. Irma came to ACC to get 
her GED. She graduated, was awarded a Texas Association of Chicanos in 
Higher Education scholarship and a work-study job in our Student 
Success Office. I am happy to report that Irma is well on her way to an 
associate degree in Business Management and hopes one day to earn a 
four-year degree. She's already talking about getting her children 
enrolled in Early College Start and her sister is now attending ACC, 
working on an associate degree in Accounting.
    We now have more than 8,000 Hispanic students and growing. Irma is 
one of many first generation college success stories at ACC.
    But Irma tells us, and this is true of many of our students, her 
future success depends on the availability of financial aid. If the 
money is there, she WILL continue her education, and she will better be 
able to help her children attend college. Title V is vital to keeping 
these students in school and creating a college going culture one 
family at a time.
    We are fortunate to have quality faculty and staff who make all of 
these student outreach and recruitment programs successful. And just as 
fortunate to have community partnerships that help the ACC District 
exceed our Closing the Gaps goals.
    One such partnership is Capital IDEA, lifting working families out 
of poverty by sponsoring educational case management services that lead 
to lifelong financial independence. Capital IDEA funds qualified 
students' tuition, books, childcare, and works with them to secure 
employment with good salaries, benefits, and opportunity for career 
growth.
    Just as crucial as minority recruitment is, however, so is 
retention. With an increase in Hispanics and ``first generation'' 
college students there exists a need for resources to keep students 
engaged. ACC's El Centro, or the Latino/Latin American Studies Center, 
offers Hispanic students mentoring and an opportunity to become 
involved in the local Latino community.
    Similarly, ACC's Center for Public Policy and Political Studies was 
established to enable and empower ACC students to gain knowledge and 
experience of, and to actively participate in varied political and 
policy processes that govern our state and nation. The first of its 
kind at a community college, the Center is committed to education, 
civic engagement, informed decision-making, critical analysis, and 
understanding cultures.
    As ACC meets the benchmark enrollment criteria for HSI, we work to 
expand existing programs and implement new initiatives under Title V. 
In our quest to increase enrollment among traditionally underserved 
students, the ACC District faces many challenges:
    <bullet> Expanding college access
    <bullet> Keeping college affordable
    <bullet> Providing additional financial aid (scholarships, grants, 
work-study)
    <bullet> Expanding outreach programs such as ACC's College 
Connection, Early College Start, and Summer Youth Program to prepare 
secondary students for higher education
    <bullet> Expanding Student Support & Success services to assist 
students in reaching their goals
    <bullet> Increasing opportunities for lifelong learning and 
workforce training
    <bullet> Offering additional ``access'' programs to get students 
``college-ready'' such as an intensive remediation course to improve 
student performance on the required assessments
    <bullet> Developing a new University Transfer Center that offers 
counseling, workshops, tours, and establishes alliances with faculty 
members at receiving four-year institutions by discipline, to 
strengthen continued student success
    <bullet> Strengthening institutional capacity to further enhance 
libraries to include expanded cultural studies sections
    <bullet> Expanding faculty development programs that focus on 
teaching diverse communities and diverse learners
    All of the college's seven campuses are near capacity, and ACC is 
expected to enroll an additional 20,000 students by 2025, where will we 
put them?
    The ACC District Facilities Master Plan calls for the expansion and 
renovation of several existing facilities and the construction of new 
campuses in areas where the demographics suggest an expansion of higher 
education services are needed. But expansions such as these take 
millions of dollars.
    Unlike four-year institutions, community colleges do no have their 
facilities paid for by state government. Although we do receive an ever 
declining proportion of state appropriations, most of our revenue comes 
from local tax dollars and student tuition. Although the college 
continues to pursue annexation of areas to increase its taxing 
district, the burden on students needs to remain low for us to meet our 
Closing the Gaps goals.
    Another challenge involves funding the employment of additional 
faculty and staff. Quality faculty from diverse backgrounds are needed 
for the success of Hispanic and other first generation college 
students. Skilled staff is also crucial to support recruitment efforts 
such as College Connection
    We are grateful to you for implementing Title V funding for 
Hispanic Serving Institutions. Higher education depends on this funding 
and frankly cannot achieve the goals expected of us without assistance 
from Congress.
    Community colleges are the primary provider of transfer students to 
four-year colleges and universities, we are the primary trainer of 
those seeking high-demand careers, and we are primary source of 
``access'' programs, lending a helping hand to students who are not yet 
college ready. Community colleges are the engines that drive economic 
development.
    If we are to meet our objectives we must work together. What's at 
stake if we don't?
    <bullet> America's reputation for educational excellence
    <bullet> Quality of life
    <bullet> Competitive strength in the economy
    <bullet> Our nation's ability to confront the challenges of the 
future
    We encourage you to place a priority on Title V funding as our 
demographics here in Texas and across the nation continue to change. 
Never have Hispanic Serving Institutions been so important to America's 
economic well-being than they are today. While most Hispanic Serving 
Institutions are succeeding in the recruitment, retention and 
graduation of Hispanics, we must do more to break down the barriers to 
higher education. Time is running out.
    We have a goal--to reverse a potentially devastating trend by 
increasing college attendance and graduation among Hispanics.
    Please help us achieve this goal--everyone's future depends on it!
                                 ______
                                 
    Chairman Hinojosa. Would the young lady, Ehrma, please 
stand and be recognized? [Applause.]
    Ehrma, congratulations. I could identify with you, because 
I also come from a family of 11, seven boys and four girls. And 
I read your aspirations, and I think we will add one more--to 
some day be a Congresswoman representing this area. [Applause.]
    Mr. Scott, would you please start?

 STATEMENT OF GEORGE SCOTT, DIRECTOR OF EDUCATION, WORKFORCE, 
   AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Scott. Certainly. Mr. Chairman, I am pleased to be here 
today to discuss the federal programs to support low income and 
minority-serving institutions. Beginning in 1965, Congress 
created several programs under the Higher Education Act, HEA, 
to strengthen and support developing post-secondary 
institutions. Congress subsequently expanded HEA to include 
programs that support institutions that provide low income and 
minority students with access to higher education.
    These programs are generally referred to as Title III and 
Title V of HEA. The amount of federal funds available for these 
programs has nearly doubled from about $230 million in fiscal 
year 1999 to about $448 million fiscal year 2007. Given the 
recent expansion of these programs, and that HEA is slated for 
reauthorization this year, this hearing presents a timely 
opportunity to explore these grant programs.
    My testimony today will focus on how institutions use their 
Title III and Title V grants, what objectives and strategies 
the Department of Education has developed for these grant 
programs, and to what extent education monitors and provides 
assistance to institutions.
    In summary, we found that grantees most commonly reported 
using Title III and Title V grant funds to strengthen academic 
quality, improve support for students, and improve 
institutional management. These institutions also reported a 
wide range of benefits from receiving grant funds. However, our 
review of grant files found that institutions experienced 
challenges such as staffing problems, which sometimes resulted 
in implementation delays.
    For example, one grantee reported delays in implementing 
its management information system, due to the turnover of 
experienced staff. In addition, an education official told us 
that common problems include delays in construction of 
facilities and hiring of staff. As a result of these 
implementation challenges, some grantees need additional time 
to complete grant activities.
    Although education has established outcome-based objectives 
and performance measures, it needs to take additional steps to 
align some of these strategies and objectives and develop 
additional performance measures. When we previously reported on 
education strategic planning efforts, its measures were focused 
on program outputs rather than outcomes, which did not assess 
program impacts.
    While education has made progress in developing more 
outcome-based measures, we found insufficient links between the 
strategies for improving institution's administrative and 
fiscal stability, with its objectives to increase student 
outcomes. To address challenges in measuring progress in these 
areas, education is conducting a study of the financial health 
of low income and minority-serving institutions supported by 
Title III and Title V programs.
    Education has made changes to improve its monitoring and 
assistance in response to our prior recommendations. However, 
additional study is needed to determine the effectiveness of 
these efforts. For example, education uses risk indicators 
designed to better target grantees that may require site 
visits, but a more extensive review is required to determine 
the quality of these visits. While education has implemented an 
electronic monitoring system, it currently lacks the ability to 
systematically track grantee performance as the system was 
designed to do.
    Education has also expanded its staff training specific to 
monitoring assistance by offering courses such as an overview 
of grant monitoring. However, more information is needed to 
assess how well courses meet staff needs, because education's 
new training and recordkeeping system does not contain 
information from prior systems.
    Finally, while education provides technical assistance 
through various methods, its ability to target assistance 
remains limited, because its feedback mechanisms may not 
encourage open communication with grantees.
    In conclusion, we previously recommended that education 
take steps to ensure that monitoring and technical assistance 
efforts are targeted to at-risk grantees. Education agreed with 
our recommendation, and has taken actions to improve its 
monitoring and assistance. While education has made progress in 
addressing these issues, it is clear that sustained management 
attention is needed to ensure that the agency is committed to 
continuous improvement in this area, and that it can ultimately 
determine to what extent these grant programs demonstrate 
appropriate and measurable results.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to answer any questions you may have at this time.
    Thank you.
    [The prepared statement of Mr. Scott follows:]

 Prepared Statement of George A. Scott, Director, Education, Workforce 
   and Income Security Issues, U.S. Government Accountability Office

Low-income and minority serving institutions
            Education Has Taken Steps to Improve Monitoring and 
                    Assistance, but Further Progress is Needed
    In their performance reports, the six grantees we reviewed most 
commonly reported using Title III and Title V grant funds to strengthen 
academic quality; improve support for students and student success; and 
improve institutional management and reported a wide range of benefits. 
For example, Sinte Gleska, a tribal college in South Dakota, used part 
of its Title III grant to fund the school's distance learning 
department, to provide students access to academic and research 
resources otherwise not available in its rural isolated location. Our 
review of grant files found that institutions experienced challenges, 
such as staffing problems, which sometimes resulted in implementation 
delays. For example, one grantee reported delays in implementing its 
management information system due to the turn over of experienced 
staff. As a result of these implementation challenges, grantees 
sometimes need additional time to complete planned activities.
    Although Education has established outcome based objectives and 
performance measures, it needs to take steps to align some strategies 
and objectives, and develop additional performance measures. Education 
has established an overall strategy to improve the academic, 
administrative, and fiscal stability of grantees, along with objectives 
and performance measures focused on student outcomes, such as 
graduation rates. In 2004, we reported that Education's strategic 
planning efforts were focused on program outputs that did not assess 
programmatic impacts, such as the percentage of goals that grantees met 
or exceeded, rather than outcomes. While Education has made progress in 
developing outcome based measures, we found insufficient links between 
its strategies for improving administrative and fiscal stability with 
its student outcome objective. To address challenges in measuring 
institutional progress in areas such as administrative and fiscal 
stability, Education is conducting a study of the financial health of 
low income and minority serving institutions supported by Title III and 
Title V.
    Education has made changes to better target monitoring and 
assistance in response to recommendations GAO made in 2004, however, 
additional study is needed to determine the effectiveness of these 
efforts. For example, Education uses risk indicators designed to better 
target grantees that may require site visits. While Education 
implemented an electronic monitoring system, it lacks the ability to 
systematically track grantee performance as designed. While Education 
provides technical assistance through various methods, its ability to 
target assistance remains limited in that its feedback mechanisms may 
not encourage open communication. Specifically, Education relies on 
grantee performance reports that are tied to funding decisions to 
solicit feedback.
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss the federal government's programs to support low-
income and minority serving institutions (MSIs). We previously reported 
on the Department of Education's efforts to monitor and assist these 
institutions.\1\ Beginning in 1965, Congress created several programs 
under the Higher Education Act (HEA) to strengthen and support 
developing postsecondary institutions. In subsequent reauthorizations, 
Congress expanded the HEA to include programs that support institutions 
that provide low-income and minority students with access to higher 
education.\2\ These programs are generally referred to as Titles III 
and V of the HEA. The amount of federal funds available for these 
programs has nearly doubled from about $230 million in fiscal year 1999 
to about $448 million in fiscal year 2007. Given the recent expansion 
of these programs and that HEA is slated for reauthorization this year, 
this hearing presents a timely opportunity to explore these grant 
programs. My testimony today focuses on (1) how institutions used their 
Title III and Title V grants and the benefits they received from using 
these grant funds, (2) what objectives and strategies the Department of 
Education (Education) has developed for Title III and Title V programs, 
and (3) to what extent Education monitors and provides assistance to 
Title III and Title V institutions.
---------------------------------------------------------------------------
    \1\ GAO, Low-Income and Minority Serving Institutions: Department 
of Education Could Improve Its Monitoring and Assistance, GAO-04-961 
(Washington, D.C. : Sept. 21, 2004).
    \2\ These programs include Title III, Part A Strengthening 
Institutions; Title III Part A American Indian Tribally Controlled 
Colleges and Universities; Title III, Part A Alaska Native and Native 
Hawaiian Serving Institutions; Title III, Part B Strengthening 
Historically Black Colleges and Universities; Title V, Part A 
Developing Hispanic Serving Institutions. Throughout the report when we 
refer to Title III and Title V programs or grants, we are referring to 
these specific programs. Our review did not include Title III, Part B 
Historically Black Professional or Graduate Institutions; Part D HBCU 
Capital Financing; or Part E Minority Science and Engineering 
Improvement Program.
---------------------------------------------------------------------------
    In summary, we found that grantees most commonly reported using 
Title III and Title V grant funds to strengthen academic quality; 
improve support for students and student success; and improve 
institutional management and reported a wide range of benefits. For 
example, Sinte Gleska, a tribal college in South Dakota, used part of 
its Title III grant to fund the school's distance learning department, 
and to provide students access to academic and research resources 
otherwise not available at its rural isolated location.
    However, our review of grant files found that institutions 
experienced challenges, such as staffing problems, which sometimes 
resulted in implementation delays. For example, one grantee reported 
delays in implementing its management information system due to the 
turnover of experienced staff. In addition, Education officials told us 
that common problems include delays in construction of facilities and 
hiring of staff. As a result of these implementation challenges, 
grantees sometimes need additional time to complete planned activities.
    Although Education has established outcome based objectives and 
performance measures, it needs to take additional steps to align some 
of its strategies and objectives, and develop additional performance 
measures. Education has established an overall strategy to improve the 
academic, administrative, and fiscal stability of HBCUs, HSIs, and 
Tribal Colleges, along with objectives and performance measures focused 
on maintaining or increasing student outcomes, such as graduation 
rates. When we reported on Education's strategic planning efforts in 
our 2004 report, its measures were focused on program outputs rather 
than outcomes, which did not assess programmatic impacts. While 
Education has made progress in developing more outcome based measures, 
we found insufficient links between its strategies for improving 
administrative and fiscal stability with its objectives to increase 
student outcomes. To address challenges in measuring institutional 
progress in areas such as administrative and fiscal stability, 
Education is conducting a study of the financial health of low income 
and minority serving institutions supported by Title III and Title V 
programs.
    Education has made changes to better target monitoring and 
assistance in response to recommendations we made in our 2004 report, 
however, additional study is needed to determine the effectiveness of 
these efforts. For example, Education uses risk indicators designed to 
better target at risk grantees that may require site visits, but a more 
extensive review is required to determine the quality of these visits. 
While Education implemented an electronic monitoring system, it lacks 
the ability to systematically track grantee performance as designed. 
Education has expanded its training specific to monitoring and 
assistance by offering courses such as an overview of grant monitoring. 
However, more information is needed to assess how well courses meet 
staff needs because Education's new training recordkeeping system does 
not contain information from prior systems. While Education provides 
technical assistance through various methods, its ability to target 
assistance remains limited in that its feedback mechanisms may not 
encourage open communication.
    To determine how institutions used Title III and Title V funds and 
the resulting benefits, we reviewed Education's 2006 Annual Performance 
Reports for six grantee institutions of Title III and Title V grant 
programs to determine uses and benefits of grant funds, and challenges 
associated with project implementation. Education selected these 
institutions based on our request for examples of schools with typical 
grant experience. The results from our review cannot be generalized to 
all grantees, and we did not independently verify the accuracy of the 
information that grantees reported. To determine the objectives, 
strategies, and performance measures Education has developed for Title 
III and Title V programs, we talked with Education officials and 
reviewed program and planning documents. To determine how Education 
monitors and provides assistance to the Title III and Title V grantees, 
we interviewed Education officials and reviewed documents, including 
program policies and guidance. We also reviewed applicable laws and 
regulations, and analyzed data regarding the characteristics of fiscal 
year 2006 grantee institutions as reported in the Integrated 
Postsecondary Education Data System (IPEDS). To assess the completeness 
of the IPEDS data, we reviewed the National Center for Education 
Statistics' documentation on how the data were collected and performed 
electronic tests to identify missing or out-of-range values. On the 
basis of these reviews and tests, we found the data sufficiently 
reliable for our purposes. Our work was performed in May 2007 in 
accordance with generally accepted government auditing standards.

Background
    Postsecondary institutions that serve large proportions of 
economically disadvantaged and minority students are eligible to 
receive grants from Education through Title III and Title V of the 
Higher Education Act, as amended, to improve academic and program 
quality, expand educational opportunities, address institutional 
management issues, enhance institutional stability, and improve student 
services and outcomes. Institutions eligible for funding under Titles 
III and V include Historically Black Colleges and Universities (HBCUs), 
Tribal Colleges, Hispanic Serving Institutions (HSIs), Alaska Native 
and Native Hawaiian Institutions, and other undergraduate institutions 
of higher education that serve low-income students. While these 
institutions differ in terms of the racial and ethnic makeup of their 
students, they serve a disproportionate number of financially needy 
students and have limited financial resources, such as endowment funds, 
with which to serve them. (See app. I for characteristics of Title III 
and Title V institutions and their students.) Title III and Title V 
statutory provisions generally outline broad program goals for 
strengthening participating institutions, but provide grantees with 
flexibility in deciding which approaches will best meet their needs. An 
institution can use the grants to focus on one or more activities that 
will help it achieve the goals articulated in its comprehensive 
development plan--a plan that each applicant must submit with its grant 
application outlining its strategy for achieving growth and self-
sufficiency. The statutory and regulatory eligibility criteria for all 
of the programs, with the exception of the HBCU program, contain 
requirements that institutions applying for grants serve a significant 
number of economically disadvantaged students. See table 1 for 
additional information about eligibility requirements.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Historically, one of the primary missions of Title III has been to 
support Historically Black Colleges and Universities, which play a 
significant role in providing postsecondary opportunities for African 
American, low-income, and educationally disadvantaged students. These 
institutions receive funding, in part, to remedy past discriminatory 
action of the states and the federal government against black colleges 
and universities. For a number of years, all institutions that serve 
financially needy students--both minority serving and nonminority 
serving--competed for funding under the Strengthening Institutions 
Program, also under Title III. However, in 1998, the Higher Education 
Act was amended to create new grant programs specifically designated to 
provide financial support for Tribal Colleges, Alaska Native and Native 
Hawaiian Institutions, and Hispanic Serving Institutions.\3\ These 
programs have provided additional opportunities for Minority Serving 
Institutions to compete for federal grant funding. In 1999, the first 
year of funding for the expanded programs, 55 Hispanic Serving, Tribal, 
Alaska Native, and Native Hawaiian Institutions were awarded grants, 
and as of fiscal year 2006, 197 such institutions had new or 
continuation grants. (See table 2).
---------------------------------------------------------------------------
    \3\ Education has proposed discontinuing funding for Title III, 
part A Alaska Native/Native Hawaiian Institutions in its fiscal year 
2008 budget proposal. According to Education, the types of activities 
supported by this program may be carried out under the Title III 
Strengthening Institutions program. Institutions whose projects would 
be discontinued would be eligible to seek funds under the Strengthening 
Institutions program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The grant programs are designed to increase the self-sufficiency 
and strengthen the capacity of eligible institutions. Congress has 
identified many areas in which institutions may use funds for improving 
their academic programs. Authorized uses include, but are not limited 
to, construction, maintenance, renovation or improvement of educational 
facilities; purchase or rental of certain kinds of equipment or 
services; support of faculty development; and purchase of library 
books, periodicals, and other educational materials.

Grantees Reported a Range of Uses and Benefits for Title III and Title 
        V Grants but Cited Some Implementation Challenges
    In their grant performance reports, the six grantees we recently 
reviewed most commonly reported using Title III and Title V grant funds 
to strengthen academic quality; improve support for students and 
student success; and improve institutional management and reported a 
range of benefits. To a lesser extent, grantees also reported using 
grant funds to improve their fiscal stability. However, our review of 
grant files found that institutions experienced challenges, such as 
staffing problems, which sometimes resulted in implementation delays.
    <bullet> Efforts to Improve Academic Quality--Four of the six 
grantees we reviewed reported focusing at least one of their grant 
activities on improving academic quality. The goal of these efforts was 
to enhance faculty effectiveness in the classroom and to improve the 
learning environment for students. For example, Ilisagvik College, an 
Alaska Native Serving Institution, used part of its Title III, part A 
Alaska Native and Native Hawaiian grant to provide instruction and 
student support services to prepare students for college-level math and 
English courses. According to the institution, many of its students 
come to college unprepared for math and English, and grant funds have 
helped the school to increase completion rates in these courses by 14 
percentage points.
    <bullet> Efforts to Improve Support for Students and Student 
Success--Four of the six grantees we reviewed reported focusing at 
least one of their grant activities on improving support for students 
and student success. This area includes, among other things, tutoring, 
counseling, and student service programs designed to improve academic 
success. Sinte Gleska, a tribal college in South Dakota, used part of 
its Title III grant to fund the school's distance learning department. 
Sinte Gleska reported that Title III has helped the school develop and 
extend its programs, particularly in the area of course delivery 
through technology. In addition, the school is able to offer its 
students access to academic and research resources otherwise not 
available in its rural isolated location.
    <bullet> Efforts to Improve Institutional Management--Four of the 
six grantees we reviewed reported focusing at least one of their grant 
activities on improving institutional management. Examples in this area 
include improving the technological infrastructure, constructing and 
renovating facilities, and establishing or enhancing management 
systems, among others. For example, Chaminade University, a Native 
Hawaiian Serving Institution, used part of its Title III grant to 
enhance the school's academic and administrative information system. 
According to Chaminade University, the new system allows students to 
access class lists and register on-line, and readily access their 
student financial accounts. Additionally, the Title III grant has 
helped provide students with the tools to explore course options and 
develop financial responsibility.
    <bullet> Efforts to Improve Fiscal Stability at Grantee 
Institutions--Two of the six institutions we reviewed reported focusing 
at least one of their grant activities on improving its fiscal 
stability. Examples include activities such as establishing or 
enhancing a development office, establishing or improving an endowment 
fund, and increasing research dollars. Development officers at 
Concordia College, a historically black college in Alabama, reported 
using its Title III grant to raise the visibility of the college with 
potential donors.
    While grantees reported a range of uses and benefits, four of the 
six grantees also reported challenges in implementing their projects. 
For example, one grantee reported delays in implementing its management 
information system due to the turn-over of experienced staff. Another 
grantee reported project delays because needed software was not 
delivered as scheduled. In addition, Education officials told us that 
common problems for grantees include delays in constructing facilities 
and hiring. As a result of these implementation challenges, grantees 
sometimes need additional time to complete planned activities. For 
example, 45 percent of the 49 grantees in the Title V, developing 
Hispanic Serving Institutions program that ended their 5-year grant 
period in September 2006 had an available balance greater than $1,000, 
ranging from less than 1 percent (about $2,500) to 16 percent (about 
$513,000) of the total grant. According to Education regulations, 
grantees generally have the option of extending the grant for 1 year 
after the 5-year grant cycle has ended to obligate remaining funds.

Education Has Developed New Objectives, Strategies, and Performance 
        Measures that Focus on Program Outcomes, but Challenges Remain
    Education has established a series of new objectives, strategies, 
and performance measures that are focused on key student outcomes for 
Title III and Title V programs. As part of Education's overall goal for 
higher education within its 2007-2012 Strategic Plan, Education 
established a supporting strategy to improve the academic, 
administrative, and fiscal stability of HBCUs, HSIs, and Tribal 
Colleges. Education has also established objectives in its annual 
program performance plans to maintain or increase student enrollment, 
persistence,\4\ and graduation rates at all Title III and Title V 
institutions, and has developed corresponding performance measures. 
When we reported on Education's strategic planning efforts in our 2004 
report, it measured its progress in achieving objectives by measuring 
outputs, such as the percentage of institutional goals that grantees 
had related to academic quality that were met or exceeded. However, 
these measures did not assess the programmatic impact of its efforts. 
Education's new objectives and performance measures are designed to be 
more outcome focused. In addition, the targets for these new 
performance measures were established based on an assessment of Title 
III and Title V institutions' prior performance compared to performance 
at all institutions that participate in federal student financial 
assistance programs. Education officials told us that they made these 
changes, in part, to address concerns identified by the Office of 
Management and Budget that Education did not have specific long-term 
performance measures that focus on outcomes and meaningfully reflect 
the purpose of the program.
---------------------------------------------------------------------------
    \4\ The percentage of full-time undergraduate students who were in 
their first year of postsecondary enrollment in the previous year and 
are enrolled in the current year at the same institution.
---------------------------------------------------------------------------
    Education needs to take additional steps to align some of its 
strategies and objectives, and develop additional performance measures. 
GAO has previously reported that performance plans may be improved if 
strategies are linked to specific performance goals and the plans 
describe how the strategies will contribute to the achievement of those 
goals.\5\ We found insufficient links between strategies and objectives 
in Education's strategic plans and annual program performance plans. 
Specifically, Education needs to better link its strategies for 
improving administrative and fiscal stability with its objectives to 
increase or maintain enrollment, persistence, and graduation rates 
because it is unclear how these strategies impact Education's chosen 
outcome measures.
---------------------------------------------------------------------------
    \5\ GAO, Agency Performance Plans: Examples of Practices That Can 
Improve Usefulness to Decisionmakers.GAO/GGD/AIMD-99-69 (Feb. 26, 
1999.) Washington, D.C.
---------------------------------------------------------------------------
    In fact, GAO and other federal agencies have previously found 
Education faces challenges in measuring institutional progress in areas 
such as administrative and fiscal stability. To address part of this 
problem, Education is conducting a study of the financial health of 
low-income and minority serving institutions supported by Title III and 
Title V funds to determine, among other things, the major factors 
influencing financial health and whether the data Education collects on 
institutions can be used to measure fiscal stability. Education 
officials expect the study to be completed in 2008.

Education Has Made Some Changes Designed to Better Target Monitoring 
        and Assistance, but Its Efforts Remain Limited
    Education made changes designed to better target monitoring and 
assistance in response to recommendations we made in our 2004 report; 
however, additional work is needed to ensure the effectiveness of these 
efforts. Specifically, we recommended that the Secretary of Education 
take steps to ensure that monitoring and technical assistance plans are 
carried out and targeted to at-risk grantees and the needs of grantees 
guide the technical assistance offered. Education needed to take 
several actions to implement this recommendation, including completing 
its electronic monitoring tools and training programs to ensure that 
department staff are adequately prepared to monitor and assist grantees 
and using appropriately collected feedback from grantees to target 
assistance.
    Education has taken steps to better target at-risk grantees, but 
more information is needed to determine its effectiveness. In assessing 
risk, department staff are to use a variety of sources, including 
expenditure of grant funds, review of performance reports, and 
federally required audit reports. However, according to a 2007 report 
issued by Education's Office of Inspector General, program staff did 
not ensure grantees complied with federal audit reporting requirements. 
As a result, Education lacks assurance that grantees are appropriately 
managing federal funds, which increases the potential risk for waste, 
fraud, and abuse.\6\ In addition to reviewing grantee fiscal, 
performance, and compliance information, program staff are also 
required to consider a number of factors affecting the ability of 
grantees to manage their grants in the areas of project management and 
implementation, funds management, communication, and performance 
measurement. Education reports that identifying appropriate risk 
factors have been a continuous process and that these factors are still 
being refined. On the basis of results of the risk assessments, program 
staff are to follow up with grantees to determine whether they are in 
need of further monitoring and assistance. Follow-up can take many 
forms, ranging from telephone calls and e-mails to on-site compliance 
visits and technical assistance if issues cannot not be readily 
addressed. In targeting grantees at risk, Education officials told us 
that the department has recently changed its focus to improve the 
quality of monitoring while making the best use of limited resources. 
For example, Education officials said that risk criteria are being used 
to target those grantees most in need of sites visits rather than 
requiring staff to conduct a minimum number each year. Based on 
information Education provided, program staff conducted site visits at 
28 of the 517 institutions receiving Title III and Title V funding in 
fiscal year 2006, but a more extensive review is required to determine 
the nature and quality of them.
---------------------------------------------------------------------------
    \6\ Office of Inspector General, Department of Education, Audit of 
the Discretionary Grant Award Process in the Office of Postsecondary 
Education (OPE), CAN: ED-OIG/A19G0001 (Apr 16, 2007).
---------------------------------------------------------------------------
    Education's ability to effectively target monitoring and assistance 
to grantees may be hampered because of limitations in its electronic 
monitoring system, which are currently being addressed. Education 
implemented this system in December 2004 and all program staff were 
required to use the system as part of their daily monitoring 
activities. The system was designed to access funding information from 
existing systems, such as its automated payment system, as well as to 
access information from a departmental database that contains 
institutional performance reports. According to Education, further 
refinements to its electronic monitoring system to systematically track 
and monitor grantees. For example, the current system does not allow 
users to identify the risk by institution. Education also plans to 
automate and integrate the risk-based plan with their electronic 
monitoring system. Education anticipates the completion of system 
enhancements by the end of 2007. Because efforts are ongoing, Education 
has limited ability to systematically track grantee performance and 
fiscal information.
    Regarding training, Education reports that it has expanded course 
offerings to program staff specific to monitoring and assistance. 
Education officials told us that the department has only a few mandated 
courses, but noted that a number of training courses are offered, such 
as grants monitoring overview and budget review and analysis, to help 
program staff acquire needed skills for monitoring and assistance. 
However, because Education recently moved to a new training 
recordkeeping system that does not include information from prior 
systems, we were unable to determine the extent to which program staff 
participated in these offerings. We reported in 2004 that staff were 
unaware of the guidelines for monitoring grantees and more information 
is needed to determine the extent to which new courses are meeting the 
needs of program staff.
    While Education provides technical assistance through program 
conferences, workshops, and routine interaction between program 
officers and grantees, Education's ability to target assistance remains 
limited, in that its feedback mechanisms may not encourage open 
communication. Education officials told us that they primarily rely on 
grantee feedback transmitted in annual performance reports and 
communication between program officers and grantees. As we reported in 
2004, Education stated that it was considering ways to collect feedback 
separate from its reporting process for all its grant programs but no 
such mechanisms have been developed.

Prior Recommendations and Agency Response
    We previously recommended that the Secretary of Education take 
steps to ensure that monitoring and technical assistance plans are 
carried out and targeted to at-risk grantees and the needs of grantees 
guide the technical assistance offered. These steps should include 
completing its automated monitoring tools and training programs to 
ensure that department staff are adequately prepared to monitor and 
assist grantees and using appropriately collected feedback from 
grantees to target assistance.
    Education agreed with our recommendation, and has taken actions to 
target its monitoring and technical assistance to at-risk grantees. 
However, additional study is needed to determine the effectiveness of 
these efforts.
    Mr. Chairman, this completes my prepared statement. I would be 
happy to respond to any questions you or other Members of the 
Subcommittee may have at this time.

 APPENDIX I: CHARACTERISTICS OF FISCAL YEAR 2006 TITLE III AND TITLE V 
                                GRANTEES

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Hinojosa. Thank you, Mr. Scott. We will ask 
questions after all the presenters have completed their 
presentation.
    Dr. Earvin?

  STATEMENT OF DR. LARRY EARVIN, PRESIDENT, HUSTON-TILLOTSON 
                           UNIVERSITY

    Mr. Earvin. Good morning, Chairman Hinojosa, and 
Representative Grijalva. Let me first welcome you back to the 
capital of the great State of Texas. We are really pleased this 
morning to have an opportunity to discuss with you our views on 
several key issues as you draft a bill to reauthorize the 
Higher Education Act of 1965, as amended.
    The oral testimony I present this morning will largely 
focus, as you requested, on the importance of Title IIIB of the 
Act for historically black colleges and universities, and to 
the higher education aspirations of African-American youth and 
their parents.
    I also want to highlight the recommendations for improving 
Part B, strengthening historically black colleges and 
universities program, including Section 323, for all of the 97 
eligible undergraduate HBCUs, as well as Section 326 of 
historically black graduate institutions that currently 
provides funding for 18 HBCU institutions and doctoral 
programs.
    Given the limitations of time this morning, I have prepared 
a comprehensive written statement which I will submit for the 
record.
    Executive Order 213-256 identifies 105 historically black 
colleges and universities. While 97 HBCUs are currently 
eligible to participate in the Part B program and meet the 
statutory definition in Section 322.2 of the Act, these 
institutions were founded prior to the enactment of the Civil 
Rights Act of 1964, and whose principal mission then, and is 
now, the education of black Americans.
    While some private and public HBCUs were founded as early 
as 1837, many public colleges and universities were founded in 
the south in the late 1800s and early 1900s, to prevent newly-
freed slaves from being educated in white colleges and 
universities.
    Congress' enactment of the Black College Act, as part of 
the Higher Education Act amendments of 1986, not only 
established a unique funding mechanism for allocating resources 
among a class of eligible institutions, but outlined a series 
of authorized activities focused on institution's capacity-
building and to strengthen the capacity of HBCUs to increase 
the number of students earning degrees.
    The universe of HBCUs enrolls more than 13 percent of all 
African-American students in higher education--almost 300,000--
yet comprises only 3 percent of the nation's 4,197 institutions 
of higher education. America's 105 HBCUs have a long and 
distinguished history of producing high quality graduates. Many 
of them have achieved extraordinary success in medicine, law, 
education, the arts, sciences, and professional athletes.
    With that background, let me highlight three points and 
recommendations for the subcommittee. First, the Title III, 
Part B, strengthening HBCUs programs, is critical to the future 
of these institutions and should be reauthorized and improved 
by incorporating several technical amendments that are agreed 
upon by the entire HBCU community. These amendments are 
provided in my full draft to you.
    Second, the Section 326 of the historically black graduate 
institutions programs has always limited institutional and 
programmatic participation to those, first, professional degree 
programs, such as law, medicine, and dentistry, and to doctoral 
programs in the physical and natural sciences. I strongly 
support the inclusion of language in Section 326E(2) that 
further clarifies this focus for the HBGI program and limits 
the master's degree funding program to terminal masters only.
    The inclusion of master's degrees without this restriction 
would dramatically expand institutional participation in the 
program. The recent appropriations history for Section 326 by 
Congress does not support such expansion, including a large 
number of master's degree programs with 13 with threatened 
funding for the current 18 institutional participants, one of 
which is Texas Southern in our own State, and funding for 
Section 323 that benefits most HBCUs.
    Smaller institutions like Huston-Tillotson University, 
Jarvis Christian College, Wiley College, and Texas College here 
in Texas, do not want to see funding for the HBGI program 
become a competitor in the Congressional appropriations 
process.
    Third, the HBCU community strongly supports the creation of 
a new funding stream for the predominantly black institutions 
in Title III, Part A. We have worked closely with Congressman 
Danny K. Davis and with Senator Barack Obama of Illinois to 
design a carefully crafted and constitutionally permissible 
means of funding these institutions. An authorization of $25 
million is requested for this program.
    Thank you again for----
    Chairman Hinojosa. Dr. Earvin, I am going to yield an 
additional two minutes for you to complete your presentation. 
And be assured that the entire presentation that you provided 
us will be made part of the record.
    Mr. Earvin. Thank you. Thank you again for inviting me to 
testify, and I welcome any questions that you, Mr. Chairman, 
may have. And I will provide a written copy of this revision 
for your records.
    [The prepared statement of Dr. Earvin follows:]

  Prepared Statement of Dr. Larry Earvin, President, Huston-Tillotson 
                               University

    Chairman Miller, Ranking Member McKeon and Members of the 
Committee, thank syou for affording me the opportunity to appear before 
you today on behalf of Huston-Tillotson University over which I am 
privileged to preside and UNCF of which Huston-Tillotson is a member 
along with thirty five (35) private Historically Black Colleges and 
Universities (HBCUs). I am delighted also to appear before you today as 
a director of the National Association for Equal Opportunity in Higher 
Education (NAFEO), the nation's only membership association of all of 
the two-year, four-year, public and private HBCUs and Predominantly 
Black Institutions (PBIs), some one hundred twenty (120) institutions, 
representing almost 800,000 students, nearly 53,000 faculty and more 
than 5 million alumni. NAFEO's more than 120 member institutions are 
located in twenty-five states, the District of Columbia and the Virgin 
Islands.
    I am especially grateful to Ruben Hinojosa and Kenny Marchant, 
House Education Committee members from the great State of Texas, and to 
Congressman Bobby Scott who is in large measure responsible for my 
appearing before you today. I also extend my appreciation to attorney 
Lezli Baskerville, President and CEO of NAFEO, for the assistance she 
provided in shaping this testimony. I hope that while you are here in 
Austin, just a short distance from the campus of Huston-Tillotson 
University, you will come tour our magnificent campus, experience the 
challenging, yet warm and welcoming environment, and see firsthand what 
we are doing with private and public dollars; and what we are able to 
continue doing thanks in large measure to federal Title III dollars.
    Your presence here today on the Monday following your Memorial Day 
recess is a testament to the level of importance you place on getting a 
better understanding of how Titles III and V work as you continue 
congressional efforts to reauthorize the
    Higher Education Act. I am eager to share with you my experiences, 
those of Huston-Tillotson and those of others in the HBCU phalanx under 
Title IIIB, Strengthening the Historically Black Colleges and 
Universities. Title IIIB is of signal importance to the survival and 
progress of the nation's 105 historically black colleges and 
universities.
    Before I share with you the abundant successes under and 
opportunities for improvement of Title III, I share with you a brief 
overview of Huston-Tillotson University Huston-Tillotson University is 
a historically black university located in Austin, Texas. It is 
affiliated with The United Methodist Church and the United Church of 
Christ. It gained university status in 2005.
    The mission of the University is to provide its increasingly 
diverse student body with an exemplary education that is grounded in 
the liberal arts and sciences, balanced with professional development, 
and directed to public service and leadership. The University prepares 
students with the integrity and civility to thrive in a diverse 
society, fosters spiritual development, preserves and promotes interest 
in the accomplishments and experiences of the University's historic 
constituents and evolving population, and creates and sustains 
supportive relationships which advance the Huston-Tillotson University 
community.
    Huston-Tillotson University awards undergraduates, four year 
degrees in business, education, the humanities, natural sciences, 
social sciences, science and technology. A multi-cultural, multi-
ethnic, and multi-faith institution, the University welcomes students 
of all ages, races, and religions.
    In 1966 the 23-acre campus contained an administration building, 
science building, two residence halls, student union-dining hall, 
gymnasium-auditorium, music hall, lounge, and two other halls. The 
Downs-Jones Library houses more that 86,000 volumes, subscribes to more 
than 350 periodicals, and is a member of TexShare, a library resource-
sharing program which enables students, faculty, and staff to borrow 
books from other member libraries. By the early 1970s new buildings 
included a classroom-administration building, a chapel, an addition of 
three wings to the women's dormitory, and an addition of two wings to 
the men's dormitory. In 2004, the first phase of renovation work was 
completed on the Old Administration Building and it reopened after 
standing unoccupied for 35 years.
    I became the fifth president of the University in 2000.
    To provide you with a sense of ``how Title III works,'' I think it 
important that you have an understanding of how Title III evolved, why 
it was important in 1986, why it remains important today more than two 
decades after it was initially included in the Higher Education Act.
    Title IIIB of the Higher Education Act of 1965 was first enacted by 
Congress as part of the Higher Education Act Amendments of 1986 (P.L. 
99-498) as the Historically Black College and University Act, Title 
IIIB. It was the official legislative way of recognizing this nation's 
sorry history of invidious discrimination against the progeny of slaves 
in higher education; of the lingering impact of years of non-support; 
and to this day, unequal support by states, funders, corporations and 
others for the nation's original and premiere mission-based equal 
educational opportunity higher education institutions that we call 
HBCUs.
    Title IIIB currently provides funding for 97 historically black 
college and university (HBCU) undergraduate programs that meet the 
definition in section 322(2) of the Act, as well as for 18 Historically 
Black Graduate Institutions (HBGIs) specifically named in section 326. 
These 18 institutions provide graduate and professional education in 
the physical and natural sciences, medicine, veterinary medicine, 
dentistry, law, pharmacy and related fields in which African Americans 
are underrepresented. A three-pronged formula determines the amount of 
each institution's award under section 323 (undergraduate), while five 
factors are used to determine the allocation of funds to the 
historically black graduate programs under section 326.
    The ``Strengthening Historically Black Colleges and Universities'' 
program has been, and continues to be, the principle source of 
institutional assistance for the HBCUs. Since its inception, the Title 
IIIB program has been very successful in supporting strategic planning 
initiatives, academic program enhancements, administrative and fiscal 
management, student services, physical plant improvements, and general 
institutional development. Since Congress first funded the Title IIIB 
program in FY 1987, the HBCUs have received more than $3 billion in 
grant awards through FY 2006.
    The Title IIIB dollars are transforming HBCUs to meet the 
challenges of a new century with cutting cutting-edge projects in 
agriculture, science, technology, and international education. Title 
IIIB dollars are also enabling HBCUs to provide vital education, health 
care, human needs, economic and community development, and recreation 
services for the communities in which they are located. I provide you 
ten (10) representative examples of how Title III is working. The 
examples include 2and 4-year institutions, urban and rural, 
undergraduate and graduate program beneficiaries. I am attaching to 
this testimony comments from Alabama State University, Alcorn State 
University, Bowie State University, Cheyney University of Pennsylvania, 
Fort Valley State University, Hampton University, JF Drake State 
Technical College, Kentucky State University, Morehouse School of 
Medicine, and Norfolk State University. Please take time to review the 
submissions.
    What you will find is that the Title IIIB programs are enabling 
HBCUs---missionbased, equal educational opportunity institutions--to 
continue promoting access and success, and educating more diverse 
students which has long been the province of the nation's historically 
black colleges and universities. As one author noted, ``HBCUs remain 
the patron saints of universal access.'' HBCUs are, in fact, the 
``patron saints of universal access AND opportunity.''
    By patron saints of ``access and opportunity'' I emphasize that 
HBCUs are not just opening their doors to opportunity to a broad and 
diverse group of students, many of whom have been traditionally 
underserved, but also offering students a college opportunity that is 
appropriate for their aspirations, preparation, and abilities. They are 
giving traditionally underserved students--the growing majority in 
America--an opportunity for a successful postsecondary experience.
    HBCUs are having many favorable results. They are generally 
offering a good return on the investment. According to data from The 
College Board's Trends in College Pricing 2006, and the 2005 NAFEO 
Enrollment Survey of HBCUs, private HBCUs on average cost $10,000 per 
year less than their white counterparts, when tuition, fees, room and 
board are factored in. Public HBCUs on average cost $1,000 less than 
their white counterparts. Using Title IIIB programs, over the course of 
the past 29 years, HBCUs have made remarkable strides. Consider these 
facts:
    <bullet> HBCUs represent only three percent (3%) of all colleges 
and universities, yet they enroll sixteen percent (16%) of all African 
Americans in 4-year degree granting institutions;
    <bullet> They graduate thirty percent (30%) of African Americans 
receiving 4-year degrees, and forty percent (40%) of African Americans 
receiving 4-year degrees in STEM areas;
    <bullet> Twenty-four percent (24%) of all PhDs earned each year by 
African Americans are conferred by twenty four (24) HBCUs;
    <bullet> Eighteen (18) of the top twenty-three (23) producers of 
African Americans who go on to receive science related PhDs are HBCUs;
    <bullet> Four (4) of the top ten (10) producers of successful 
African American medical school applicants are HBCUs. These HBCUs 
produce twenty percent (20%) more African American applicants than the 
other six
    (6) institutions combined;
    <bullet> Eight (8) of the top ten (10) producers of African 
American engineers are HBCUs.
    It is expected that Title III programs will be more sorely needed 
than ever so that HBCUs can continue to evolve to meet the changing 
characteristics of today's students, today's civic, social, political, 
ecumenical and labor force needs. As you are aware, in the forty years 
since the Higher Education Act was passed, the more than twenty years 
since Title IIIB was enacted, the nation has become more colored, more 
culturally diverse, more global, more technological, and more virtual. 
The cost of higher education has escalated to keep pace with the 
growing scientific, security, and technological demands of the day: 
demands for information now, information on-the-go, and to expand the 
reach of the information we have and information we need beyond the 
boarders of campuses, counties, states, regions, and nations. Title III 
programs are enabling HBCUs to keep pace.
    It is projected that an even greater burden will be placed on HBCUs 
in the coming years as the national demographics change. It is 
projected that by the year 2050, one-half of the United States will be 
``minorities''. Because HBCUs educate a disproportionate number of 
racial and ethnic minorities, it can be expected that a greater 
proportion of those seeking a higher education in and around 2050 will 
choose to attend an HBCU. Add to the demographics the financial 
stagnation that is projected for American workers well into the next 
century, and the retrenchment in student grant-aid programs, and it 
becomes clear that the demands on HBCUs will be even greater than they 
are today. Well into the next century, HBCUs will not only be required 
to ``remain at the creative forefront of American education, offering 
tools and skills necessary to prepare students for today's competitive 
and technological society,'' \1\ but they will also be required to 
increase the role that they play as providers of social services.
---------------------------------------------------------------------------
    \1\ From the address of President Bill Clinton on the occasion of 
the commencement of HBCUs Week, 1996.
---------------------------------------------------------------------------
    Title III programs are needed for one additional reason according 
to a 2004 report by Thomas G Mortenson, the Senior Scholar at The Pell 
Institute for the Study of Opportunity in Higher Education. Title IIIB 
programs are needed so that HBCUs can keep educating diverse students 
at a time when the nation's flagship institutions are not doing a good 
job. The Mortenson Report found that at this time when state public 
higher education institutions should be doing more to enroll and 
graduate traditionally underrepresented populations, because of their 
growing numbers in the population, most of our flagship universities 
are doing a grossly inadequate job of enrolling African Americans, 
Hispanics, and American Indians.
    Despite some recent progress, among the universities that Dr. 
Mortenson found to be least engaged in enrolling underrepresented 
minorities present in higher education in their states and most 
segregated are: the University of Georgia, University of Mississippi at 
Oxford, Louisiana State University, Baton Rouge, University of 
Tennessee, Knoxville, University of Delaware, University of Texas, 
Austin, University of Arkansas, Fayetteville. These are all states with 
HBCUs. The Mortenson report goes further to conclude as follows:
    As these state flagship universities disengage from the demographic 
changes occurring in their states, they diminish their justification 
for further state financial support for their operations. As flagships 
increasingly focus on the affluent shrinking majority populations in 
their states, then state political leaders should reallocate state 
higher education investment resources toward those institutions and 
programs that are serving these growing populations on which the state 
futures depend.
    To maximize social welfare and diminish the many divisions that 
fracture our nation, federal resources devoted to broadening higher 
education should also be reallocated. Institutions that are disengaged 
from serving the rowing demographic groups on which country's future 
depends should be suspended from further Title IV student financial aid 
program eligibility. Institutions that are disengaged should be placed 
on probation and challenged to engage or face suspension. And those 
institutions that are reaching out to these growing demographic groups 
should be strongly supported for the important work they are doing.
    Moreover, many of these same state flagship universities that are 
turning away from addressing demographic opportunities have accumulated 
significant endowments (profits) that remain tax free: UT system 
($8.7B), Univ of VA ($1.8B), Ohio State U ($1.2B) UNC CH ($1.1B) Penn 
State U ($.900M), University of Illinois ($900M), University of 
Delaware ($900M)
    These public universities have accumulated huge profits but most 
appear unable or unwilling to enroll their state shares of 
underrepresented minority populations. They do not lack resources-they 
lack will.
    The Mortenson Report has public policy implications worthy of our 
consideration. As we seek to invest more equitably and efficiently in 
higher education, to prod higher education access and success, and to 
focus on outcomes-based education, consideration should be given to 
investing proportionately more in those institutions, like HBCUs, HSIs, 
and AIHEC institutions that continue to enroll and graduate 
disproportionate numbers of traditionally underserved students. This 
approach would foster at least three important higher education goals: 
(1) promoting access to postsecondary education; (2) containing college 
costs and prices; and (3) fostering standards and accountability.
    To enable Title IIIB to continue strengthening the nation's 
premiere equal educational opportunity institutions and expanding 
educational excellence, access and equity, the entire HBCU community is 
united behind the following amendments to Title IIIB:
    <bullet> Revise section 324(d) of the Act to limit the award of 
Title IIIB funds to HBCU s that meet the requirements of section 322(2) 
and satisfy every element of the formula in section 326(f)(3).
    <bullet> Increase the authorization of appropriations in fiscal 
year 2007 to $260 million for section 323 and to $75 million for 
section 326 and ``such sums'' in the succeeding four fiscal years.
    <bullet> Retain the current law HBGI allocation formula for 
distributing funds to all eligible historically black graduate and 
professional schools and ``qualified graduate programs'', with a ``hold 
harmless'' provision to prevent the reduction in any HBGI's prior year 
award;
    <bullet> Add any newly eligible professional schools or ``qualified 
graduate programs.'' Qualifying programs include:
    Albany State University: Nursing Alcorn State University: Agronomy, 
Animal Science, Biology, Computer Information Science, Rural Nursing.
    Bowie State University: Computer Science, Family Nurse 
Practitioner, Management Information Systems Grambling State 
University: Nurse Practitioner Langston University: Physical Therapy 
University of the District of Columbia School of Law.
    <bullet> Revise section 327(b) of the Act to clarify congressional 
intent that eligible institutions have ten years to obligate Title IIIB 
grant funds;
    <bullet> Revise section 322(4) of the Act to clarify that the 
authority to determine areas in which Blacks are underrepresented 
resides solely with the Secretary of Education, in consultation with 
the Commissioner of the National Center for Education Statistics and 
the Commissioner of the Bureau of Labor Statistics;
    <bullet> Authorize new activities including the creation or 
improvement of facilities for Internet or other distance learning; the 
acquisition of real property adjacent to the campus needed to construct 
instructional facilities; general faculty support; etc.
    <bullet> Include a new technical assistance authorization for 
institutions to use up to two percent of their Part B funds for 
technical assistance purposes related to grant activities approved by 
the Secretary of Education.
    In addition to the above recommendations, the HBCU community and 
the evolving community of predominantly black institutions stand united 
behind an amendment to the Higher Education Act to include a new Title 
III, Part A that would authorize a minimum grant of $250,000 to 2-or 4-
year institutions of higher education defined as Predominantly Black 
Institutions (PBIs). This proposed amendment is an effort to expand 
educational access to the growing segments of the American workforce. 
The proposed PBI amendment is aligned with and proposes federal support 
for PBIs comparable to that which is currently provided to Hispanic-
Serving Institutions under Title V Part A, Section 501 of the HEA where 
funds are authorized to provide grants and related assistance to 
Hispanic-serving institutions to enable such institutions to improve 
and expand their capacity to serve Hispanic students. It is also 
aligned with and would offer support for PBIs comparable to that which 
is provided under Title III, Section 303, where funds for Indian Tribal 
Colleges and Universities are authorized to enable such institutions to 
improve and expand their capacity to serve Indian students.
    The PBI amendment would greatly enhance the nation's ability to 
make higher education available to all who are prepared and desirous of 
attending college. In so doing, it would expand the nation's ability to 
prepare more Americans to meet the demands of the labor force for more 
highly trained, technological workers, and for a more diverse labor 
force.
    PBIs are located in service areas of high distress, high need, and 
traditionally low-performing PK-12 systems. They are potent 
educational, economic, social, and political resources for their 
service areas. They are feeders of diverse students into four-year 
institutions (in the case of two-year institutions), graduate and 
professional schools, and into the labor force.
    It is in the nation's interest to help ensure that all students who 
are prepared and desirous of attaining a higher education are afforded 
an opportunity to do so; and that higher education institutions that 
are educating disproportionate percentages of low-income, first 
generation, traditionally underserved students are strengthened.
    Despite efforts to close the higher education attainment gap 
between white students and racial and ethnic minorities, the gap 
remains manifest. More affordable and more accessible, PBIs help to 
close the gap between black students and white students enrolling in 
and graduating from college.
    Relative to other institutions of higher education, PBIs are under-
funded.
    PBIs are different than Historically Black Colleges and 
Universities (HBCUs) in mission, history and, in some instances, 
resource challenges. Similar to HBCUs, they are meeting vital higher 
education needs for traditionally underrepresented students, a 
disproportionate number of whom are black. Indeed, PBIs are meeting the 
needs of more than 200,000 students each year. PBIs would be added to 
HEA without jeopardizing the HBCU program and in a manner that would 
withstand ``strict scrutiny.''
    The proposed definition of a ``PBI'' is an institution with:
    1000 full time students or FTE;
    At least 50% of students are Pell Grant-eligible;
    At least 50% of students are first generation college students;
    At least 40% of enrolled students are Black American;
    At least 25% of graduates enroll in an advanced degree program; and
    At least 25% of students complete degree requirements in a 
specified time period
    The proposed use of race as just one factor among several others 
suggests that the proposed new category of institutions would meet 
constitutional muster. In Grutter v. Bollinger, a majority of the 
Supreme Court Justices upheld the use of race as one of many factors 
that may be considered in fashioning diversity initiatives in higher 
education. The PBI provision would allow for the consideration of race 
as one of several factors in determining an institution's eligibility 
for inclusion in the proposed Title IIIA of the Higher Education Act. 
Race would not be the only factor; and the proposed definition would be 
consistent with the legislative scheme for the inclusion of HSIs and 
Tribal Colleges and Universities. I am including as an appendix to this 
testimony, a one-page briefing paper on this important amendment to 
Title III.
    The purpose of the Endowment Challenge Grant program is to help 
traditionally under-funded institutions to grow their endowments, which 
are essential to their survival and enhancement. For these institutions 
to grow their endowments is increasingly important during this economic 
downturn. Congress ceased providing direct funding for the program in 
fiscal year 1995. Many NAFEO member institutions, especially small 
private and public colleges, which serve large numbers of lower income 
students, tend to be enrollment driven and have fewer wealthy alumni 
than their historically white counterparts from which to secure large 
gifts. The percentage of alumni from these institutions who give to 
their alma maters is significantly smaller than the percentage of 
alumni at their competitor institutions. Federal matching grants 
present an attractive magnet to lure private sector involvement--namely 
corporate and foundation contributions. Each Endowment Challenge Grant 
must be matched on a dollar-for-dollar basis.
    The Challenge Grant Act Amendments of 1983 authorized matching 
federal grants for small private and public colleges and universities 
that qualified for Title III of the Higher Education Act. Subsequent 
amendments to the law have allowed Historically Black Colleges and 
Universities (HBCUs), community and junior colleges, Hispanic-Serving 
Institutions (HSIs), Tribal Colleges and Universities (TCUs), and other 
minority-serving institutions to participate in the program.
    The united HBCU community recommends establishing a two-tiered 
match system: a 1:1 or 2:1 dollar match, with a five-year wait out 
period for institutions in the 2:1 program. Allowing a 2:1 match would 
allow institutions to pursue more aggressive endowment building 
campaigns on their campuses.
    Congress established the Historically Black College and University 
(HBCU) Capital Financing program to provide HBCUs with resources for 
the repair, renovation, or in exceptional circumstances, the 
construction or acquisition of instructional, laboratory, residential 
campus facilities; instructional equipment, research instrumentation, 
or fixtures related to such facilities, and of any real property 
underlying such facilities. Very few projects have been approved since 
1992. As of May, 2007, only 12 financing projects, totaling an 
estimated $180 million, had been approved since the program's 
inception.
    The Department of Education's preferred method of financing HBCU 
Capital projects is to provide loans tied to a Department of Treasury-
based benchmark. This practice has resulted in increased costs to the 
institution, including paperwork burdens and processing delays. To 
strengthen this sorely needed program, the HBCU community recommends:
    <bullet> Expanding the purposes for which financing may be used to 
include the acquisition of property adjacent to the campus;
    <bullet> Increasing the authorization of appropriations for the 
HBCU Capital Financing program to $308,000;
    <bullet> Eliminating financing tied solely to the Treasury-bill 
rate;
    <bullet> Reducing the paperwork burden for institutions and the 
time between an institution's submission of its application to the time 
for approval for financing; and
    <bullet> Eliminating the current requirement for cross 
collateralization of capital.
    The purpose of the Minority Science and Engineering Improvement 
Program (MSEIP) is to increase minority representation in science and 
technology by improving science and engineering programs at minority 
institutions. Institutions of higher education may use MSEIP funds for 
projects ranging from faculty development and improvement, curriculum 
development and research capabilities.
    The HBCU united community supports an increase in the authorization 
of appropriations to $20 million and the creation of a new authority 
that encourages consortia that include the Department of Energy's 
regional laboratories, other federal agencies with science, 
mathematics, engineering and technology missions or mandates, and 
private sector companies or foundations related to health and 
scientific research.
    The final amendment we propose to Title III is for the 
establishment of a new section that would create an HBCU Research, 
Education and Technical Assistance Center with Endowed Chairs at the 
accredited HBCU law centers. The Center would gather, maintain & 
disseminate quantifiable, research-based data to sustain HBCUs, close 
the achievement, performance, and retention gaps, and improve 
educational outcomes. The endowed chairs would work with HBCUs in their 
region to gather and present data necessary under the Program 
Assessment Rating Tool (PART) to demonstrate to the satisfaction of the 
Department of Education, state legislatures and other legislative, 
regulatory, administrative, and judicial bodies, the outcomes from the 
Title III investments in HBCUs. The Center and HBCU accredited law 
schools would also gather and maintain data sufficient to support 
strategic investments in HBCUs, and pilot test and identify best 
practices in a number of critical areas including student retention at 
HBCUs, best practices for closing the stark male, female enrollment gap 
on HBCU campuses and the like.
    The above recommendations will go a long ways toward strengthening 
HBCUs and PBIs, their students, faculty, staff and facilities. To the 
extent to which we as a nation strengthen HBCUs and PBIs, we will 
strengthen a growing segment of the American workforce, strengthen our 
families and communities, and make America strong.
    Please give these recommendations your favorable consideration.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    Dr. Vanegas.

STATEMENT OF OLIVIA VANEGAS-FUNCHEON, PRESIDENT AND CEO, TOHONO 
                   O'ODHAM COMMUNITY COLLEGE

    Ms. Vanegas-Funcheon. Buenas dias.
    Chairman Hinojosa. Buenas dias.
    Ms. Vanegas-Funcheon. Good morning, Mr. Chairman, and 
Congressman Grijalva. On behalf of the Donatem Community 
College, I thank you for the opportunity to submit testimony 
today.
    I am here to testify on Title IIIA, Section 316, which 
provides grants and related assistance to the Indian tribal 
college and universities to enable such institutions to improve 
and expand their capacity to serve Indian students.
    It has been the dream of our nation, our Tohono O'odham 
Nation, to build this college, and we are now one of the 35 
tribally-controlled colleges. We are located in Salas, Arizona, 
in the middle of the Saharan Desert, 60 miles southwest of the 
city of Tucson. Since the start of the college, we have been 
building the infrastructure. We have collaborated with the 
community and been responsive to the educational needs of our 
students who have not had the opportunity to go to college 
because they live in remote villages.
    By 2005--we were chartered in 1998, and by 2005 we became a 
land grant institution and fully accredited by the Higher 
Learning Commission. So it is like flying a plane while we are 
building it.
    As one of the previous presidents has said, the vision of 
the college is twofold--to become the center of higher 
education on the Tohono O'odham Nation, and also to have the 
Tohono O'odham Nation students to participate--become 
participants of the local, state, national, and global 
communities.
    The Nation lies on 75 miles of the Mexican-U.S. border. It 
is geographically the largest--the second largest reservation 
in Arizona. Eleven thousand of the 27,000 members of the Nation 
live on the reservation. The rest live in nearby Tucson, 
Phoenix, and other cities. Our Nation members--many of them 
live at poverty level. The earn $6,000 less than other Arizona 
tribes, and also less than half of the U.S. average.
    The unemployment rate of the working people is 23 percent. 
And of the discouraged workforce, it is 67 percent. So there is 
a gap. At the lower--the bottom fifth percent of the 
population, where many of our Tohono O'odham--the population of 
Arizona, the bottom fifth, that income is one of the lowest in 
the nation, and it continues to decrease, whereas the top fifth 
of the Arizona households, the income has increased by 31 
percent. So the poverty in the Tohono O'odham--for the Tohono 
O'odham Nation is great.
    Literacy and education levels are, again, one of the 
poorest in the nation. When we look at the graduation rate of 
our students, as far as diplomas, again, more than 50 percent--
less than 50 percent of our students are graduating from high 
school, and so that begins the start of many of our issues with 
education. We also have health problems. Diabetes is at the 
highest rates. We have alcohol and drug abuse problems, and so 
these are all the challenges and a really brief summary. All of 
the detail is in my written testimony.
    The education and institution challenges are faced by the 
Tohono O'odham Community College. Ninety-five percent of our 
students are American Indian, and most of them are Tohono 
O'odham students.
    Now, to get to Title III. Title III has helped the college 
address many of the challenges mentioned above. The Tohono 
O'odham Community College used Title III over the first year to 
support the retention of students at Tohono O'odham Community 
College. The goals of the project are to increase student 
enrollment sufficient to ensure long-term financial viability 
of the institution.
    The second goal is to realize the vision and mission of the 
college by connecting the unique academic needs of the science 
and math curricula to the Tohono O'odham Hymda, which is our 
way of life. The third goal is to provide basic skills 
targeting the academic remediation needs of the students. And 
the fourth is to develop a sponsor project program that 
enhances TLCC's planning and development ability to implement, 
evaluate, and ultimately institutionalize academic and support 
programs and services and resources.
    Chairman Hinojosa. Dr. Vanegas, I am going to yield an 
additional two minutes for you to complete your presentation, 
and also I assure you that your entire presentation will be 
made part of the record.
    Ms. Vanegas-Funcheon. Okay. Thank you. Title III grant has 
contributed to enhancement and integration of the science and 
math courseworks to the people's way of life. The funding has 
provided a state-of-the-art laboratory. We have hired 
instructors in GED math and science. We have created a study 
center for tutoring our students, and, of course, the sponsor 
project that helps us gain more grants.
    My recommendations are to first expand the authority of the 
tribal college Title III program to oppose the establishment of 
new Title III programs for non-tribal institutions; and to 
continue the working relationship with a funding agency; and, 
third, to--one of the biggest challenges is transportation 
needs, to make that an allowable cost as far as the grants.
    I urge you for these considerations of these--I urge the 
consideration of these recommendations, and I thank you for the 
opportunity to address you today.
    Thank you.
    [The prepared statement of Ms. Vanegas-Funcheon follows:]

   Prepared Statement of Olivia Vanegas-Funcheon, President, Tohono 
                       O'odham Community College

    Mr. Chairman and members of the Subcommittee, on behalf of the 
Tohono O'odham Community College (TOCC), one of the newest developing 
tribal college, thank you for the opportunity to submit testimony to 
the to the U.S. House Education and Labor Subcommittee on Higher 
Education, Lifelong Learning, and Competitiveness regarding the Higher 
Education Act: Institutional Support for Colleges and Universities 
Under Title III.
Introduction
    The purpose of the legislation that established Title III-A, Sec. 
316 is to ``provide grants and related assistance to Indian Tribal 
Colleges and Universities to enable such institutions to improve and 
expand their capacity to serve Indian students.''
    To fulfill the dreams of generations of the Tohono O'odham Nation 
members, the Tohono O'odham Nation Legislative Council established 
Tohono O'odham Community College (TOCC)--one of the 35 tribally 
controlled colleges and universities in the United States--in January 
1998, as the official institution of higher education of the Tohono 
O'odham Nation. The college is located in Sells, Arizona, the 
administrative center of the Tohono O'odham Nation, approximately 
sixty-miles southwest of the nearest off-reservation population center, 
the city of Tucson.
    Since the inception, the College achieved outstanding successes in 
the development of its infrastructure, recruitment of highly qualified 
and committed faculty and staff, involvement and collaboration with the 
community, and responsiveness to meeting the educational needs and 
desires of its students and of the Tohono O'odham Nation. By 2005, TOCC 
was designated a land grant institution and achieved full accreditation 
from the Higher Learning Commission.
    The vision for TOCC is to become the Tohono O'odham Nation's center 
for higher education. Assuming this role, the mission is two-fold. The 
vision is to enhance the Tohono O'odham Nation's participation in the 
local, state, national, and global communities.
    The Tohono O'odham Nation, lying along 75 miles of the Mexico-US 
border, is geographically the second largest reservation in Arizona--
the size of Connecticut--and today home to some 11,000 of the Tohono 
O'odham Nation's 27,000 citizens. A large number of Tohono O'odham 
members reside in Tucson, Phoenix, other nearby towns and cities, and 
still farther distant. The Tohono O'odham Nation politically and 
geographically consists of eleven units, known as districts.
    Tohono O'odham Nation's 24,000 membership living in Arizona has a 
median household income of $6,000 less per year than other Arizona 
tribes and less than half the U.S. average. Official unemployment rate 
is 23% of the total workforce. Because of the reservation's lack of 
jobs, the Tohono O'odham Nation's statistics show a discouraged 
unemployed rate of 67% of the workforce.
    According to economist Marshall Vest, the income gap in Arizona is 
growing faster than in any other state. About 900,000 Arizonans now 
live below the poverty level, almost twice the number recorded in 1990. 
The average income of the bottom fifth of the population, where many 
Tohono O'odham Nation household income exist, is one of the nation's 
lowest, $7,273 per year or lower in 1998. Adjusted for inflation, this 
Arizona population has had income fall 15% in the decade from 1990-
2000. During the same period, the top fifth of Arizona households saw 
income increase by 31 percent.
    The 2000 Census estimated 13 percent of American families are 
living in poverty. Yet in Arizona, 17% of the population--the 7th 
highest percentage nationally--live in poverty. Despite the overall 
poor standing of Arizona, over three and a half times as many Tohono 
O'odham families (24%) live below the poverty line. While the 
increasing income gap between rich and poor means fewer Arizona 
families are occupying middle-class status, it also means that the 
economic status of the vast majority of Tohono O'odham is further 
sinking vis-a-vis the rest of the population.
    Major determinants of economic status are literacy and education 
levels. Associate degree graduates earn 30.6 percent more ($7000) per 
year than high school graduates. Bachelor degree graduates earn 60.3 
percent ($13,300) more than high school graduates. Tohono O'odham's 
educational performance is among the poorest in the nation. Although 
overall 65% of American Indians have a high school diploma or have 
completed a GED, only 48% of the Tohono O'odham Nation's population has 
done so. Furthermore, only 4.6% of Tohono O'odham's population has an 
earned baccalaureate degree. In an average year, approximately 100 
students graduate from K-12 public, Catholic, and BIA schools on and 
off the reservation.
    Tohono O'odham health problems in general are serious. The Tohono 
O'odham have the country's highest Type II Diabetes rate. Especially 
acute is the rate of Diabetic mothers. The U.S. has 25 diabetic mothers 
per 1,000 live births. On the Tohono O'odham Nation, the rate is 79 per 
1,000 births. Teenage pregnancy rates are 118 per 1000 persons, or 12% 
of all women ages 15-19. At 9.1% of the total population, the Tohono 
O'odham Nation's mortality rate for post-neo-natal fatalities is the 
highest in the U.S. Neo-natal care is also a major problem. Three times 
as many Tohono O'odham mothers are likely to drink during pregnancy 
than in the U.S. population as a whole. Alcohol and drug abuse combined 
with crime associated with such abuse, and factors such as early 
mortality from vehicle accidents, are other serious problems that 
negatively impact family life.
    The acute economic and health problems confronting the Tohono 
O'odham translate into inordinate educational and institutional 
challenges faced by TOCC in carrying out its mission to enhance the 
quality of life of the Tohono O'odham Nation.
    The student body at TOCC continues to grow in number. For academic 
year 2005-2006, the unduplicated head count and FTS (full-time student 
equivalency) per semester were as follows: Fall 2005--286 students (151 
FTSE), Spring 2006--215 students (149 FTSE); and Sumer 2006--150 
students (60 FTSE). For Spring of 2006, gender distribution was 133 
females and 82 males. Ninety-five percent of the student body are 
American Indian or Alaskan Native, and the vast majority are members of 
the Tohono O'odham Nation.
Title III
    Title III helps the college address many of the challenges 
mentioned above. The Tohono O'odham Community College used Title III 
over the first year to support the retention of the students at TOCC. 
The goals of the project are to
    (1) Increase student enrollment sufficient to ensure the long-term 
financial viability of the institution.
    (2) Realize the Vision and Mission of the College by connecting the 
unique academic needs of the science and math curricula to the Tohono 
O'odham Himdag (Way of Life).
    (3) Provide basic skills programs targeting the academic 
remediation needs of students.
    (4) Develop a sponsored projects program that enhances TOCC 
planning and development ability to implement, evaluate, and ultimately 
institutionalize academic and support programs, services, and 
resources.
    The Title III grant has contributed to the enhancement and 
integration of the science and math coursework into the Himdag. The 
funding has provided a state of the art science laboratory for research 
opportunities and programs, hired math, science and GED instructors, 
established a study center to provide tutoring and mentoring for 
students enrolled in developmental coursework, increased student 
enrollment in science and GED classes, established a sponsored projects 
office to maintain good standing with granting agencies and increase 
funding opportunities to support TOCC academic programs, student 
services, and operations.
    The grant has facilitated in bringing additional resources to TOCC. 
TOCC submitted a proposal and was awarded, ``Everything in the Desert 
Connects'' to the U.S. Department of Defense (DoD), under the 
Instrumentation Program for Tribal Colleges and Universities. TOCC will 
use these funds to purchase GIS/GPS, and remote sensing equipment, 
accompanying necessary software for the purposes of enhancing, 
educational experiences not only for TOCC students but also for 
numerous tribal programs, while also impacting local farming and 
ranching endeavors.
    Now that the Title III laboratory is operational, the college had 
12 students enrolled in an environmental biology course--a first--in 
the summer semester. This increased enrollment for the environmental 
biology course supports the conclusion that if the college built 
laboratory facilities enrollment would increase. Student opinion 
indicated that there is a need for the college to upgrade its 
mathematical and science program with GIS/GPS equipment, calculators, 
and software. The new lab facility is equipped with a wireless network 
with which the new GIS/GPS lab would connect. As a result of Title III 
grant, TOCC is able to offer a new state of the art science laboratory 
that will invite similar grant programs, such as the Department of 
Defense--Instrumentation Program for Tribal Colleges and Universities, 
for continued contribution of additional resources to TOCC. Prior to 
the new laboratory, TOCC had no formal hands-on laboratory facilities 
such as the Biology/Chemistry laboratory.
    The educational attainment for Tohono O'odham Nation students is 
reported in the two school districts located on the reservation with 
high school graduation rates of 39.7% and 55.0% for 2002-03. 
Nevertheless, TOCC has served 3,490 students and graduated 195 students 
with two-year associate degrees, certificates, and GEDs since the year 
of 2000.

                                 TOHONO O'ODHAM COMMUNITY COLLEGE AWARDS BY TERM
----------------------------------------------------------------------------------------------------------------
               Degree code                  2001     2002     2003     2004     2005     2006     2007    Total
----------------------------------------------------------------------------------------------------------------
AA......................................        3  .......        5        6        3        2        4       23
AAS.....................................        2  .......        6        2        1        3       17       31
ABUS....................................  .......  .......  .......        1  .......  .......        2        3
AGS.....................................        3        1        3  .......        1        1  .......        9
CERT....................................        8       14        4        2        7        7       12       54
GED.....................................       12       10        6       13       11       12       11       75
                                         -----------------------------------------------------------------------
      All awards........................       28       25       24       24       23       25       46      195
----------------------------------------------------------------------------------------------------------------

    TOCC's success is measured by the improvements the college has made 
to students' lives. We know that culturally appropriate higher 
education for our people works when we began to see the economic 
benefits that will strengthen individuals, families, and community with 
greater workforce skills, opportunities for leadership, financial 
stability, employment opportunities close to home, and knowledge to 
take care of the land. We know that culturally appropriate higher 
education for our people works when we began to see the social benefits 
that will impact families and communities with the ability to reduce 
the social problems, preserve the culture, language, and traditions, 
further educational opportunities, use better technology, and improve 
Community programs
Recommendations
    More than two dozen federally chartered tribal colleges and 
universities are associated with educating Native Americans at the 
postsecondary level. They get the vast majority of their support from 
the federal government, receiving a total of nearly $100 million in 
operating funds each year through the Labor Department's Bureau of 
Indian Affairs, and a significantly smaller amount for programs and 
facilities through the Education Department's Strengthening Tribally 
Controlled Colleges and Universities program. As one of the newest 
member of the American Indian Higher Education Consortium (AIHEC), we 
recommend the following:
    <bullet> Expand and increase authority for the Tribal Colleges and 
Universities' Title III Part A program. Attached is AIHEC's Summary of 
Proposed Amendments to the Higher Education Act (110th Congress).
    <bullet> Oppose establishing a new HEA Title III Program for Native 
American Serving, Non-tribal institutions.
    <bullet> Continue funding to build a strong working relationship 
with the funding agency and to provide the necessary training/knowledge 
on Title III programs for tribal colleges and universities.
    <bullet> Consider allowable costs for transportation needs for 
students living in isolated and rural locations and for instructors who 
travel to those distant locations to conduct classes.
    On behalf of the Tohono O'odham Community College, one of the 
newest members of the American Indian Higher Education Consortium 
(AIHEC), I urge you to consider the recommendations put forward to you 
today and I thank you for the opportunity to address you.
                                 ______
                                 
    [Additional material submitted by Ms. Vanegas-Funcheon 
follow:]

 Prepared Statement of the American Indian Higher Education Consortium 
                                (AIHEC)

    The nation's Tribal Colleges and Universities (TCUs), which 
comprise the American Indian Higher Education Consortium (AIHEC), 
recommend that the language included in S.1614, as reported, from the 
Health, Education, Labor, and Pensions Committee in the last Congress 
(109th Congress) that addresses the TCU Title III grant program be 
included in the 110th Congress' reauthorization of the Higher Education 
Act. The following is an explanation of the changes sought.
Title III: Institutional aid
    Expand and increase authority for the Tribal Colleges and 
Universities' Title III Part A program: Currently, Sec. 316 of Part A 
specifically supports Tribal Colleges and Universities through two 
separate competitive grants programs: 1) a development grants program 
that awards 5-year grants, and 2) a single-year award program designed 
specifically to address the critical construction and infrastructure 
needs at tribal colleges. Changes to the current programs that would be 
of great benefit to the TCUs include:
    <bullet> Formula Driven Program: Tribal Colleges and Universities 
would clearly benefit from a formula approach to their Title III 
development grants program, provided the formula reflects the needs of 
these unique institutions and the intent of the Title III--
Strengthening Institutions program. Additionally, the TCUs are very 
interested in retaining a portion of annually appropriated TCU Title 
III program funding to continue the competitively awarded construction 
grants program. Sec. 303 of S. 1614, as reported, includes language 
that would accomplish this goal.
    <bullet> Justifications: Tribal Colleges and Universities operate 
on shoestring budgets and many rely on a patchwork of competitive 
grants for the financial resources to simply keep their doors open. 
TCUs are the youngest and least developed institutions of higher 
education in the nation. As such, they are the most in need of these 
funds yet, they must struggle to submit competitive applications under 
the arduous requirements and volume of Title III Part A grants. While, 
many higher education institutions can and do spend thousands of 
dollars on grant application preparation and submission. This is simply 
not an option for TCUs. Another key factor is the limited size of the 
pool of eligible applicants for the TCU program. Although new TCUs are 
emerging, the pool is expected to remain below 45 institutions for the 
foreseeable future. Creating a formula funded program would result in a 
win-win situation. Current applications submitted for Title III Part A 
competitive grants must have each of the required areas individually 
judged by application reviewers, by converting this program to formula 
funding, considerable administrative time and cost savings could be 
realized by the Federal government.
    While formula funding of the basic development grants has long been 
sought by the TCUs, retaining the competitive construction grants 
program that has been available to the TCUs through appropriations 
language since fiscal year 2001 is also a priority.
    <bullet> Authorization of Appropriations: We are requesting a $35 
million authorization for fiscal year 2008 and ``such sums'' for each 
succeeding fiscal year. We are looking to increase funding to a level 
adequate to continue to support those institutions currently eligible 
to apply for funding under the TCU program as well as to accommodate 
emerging TCUs. These new TCUs will further expand access to quality 
higher education opportunities for American Indian people.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    Chairman Hinojosa. Thank you. I want to add to your 
presentation, Ms. Vanegas, that Congressman Grijalva, together 
with Congressman Dale Kilby, have championed, both working 
together with me, the higher education opportunities for all 
tribally controlled colleges and universities in the entire 
United States.
    And we welcome representatives from those colleges and 
universities to come more often to Washington, so that we can 
continue this dialogue that we are having today, so that we can 
try to increase the federal investment in those colleges and 
universities.
    And, Dr. Earvin, I must say that the Congressman who sits 
on the Education Committee with me and works closely with me, 
Dale--not Dale, but Danny Davis, is a strong champion for those 
HBCU colleges and universities and has raised the level of 
awareness of members of Congress to the growing predominantly 
black student colleges and universities who also are asking for 
our assistance, and that we are going to give that strong 
consideration as we move forward in this reuthorization of 
higher education.
    I am going to begin with the first questions. And, Dr. 
Kinslow, your recruitment programs entitled College Connections 
appear to be the reason for such tremendous student growth in 
your district. Would you please give us some brief highlights 
of the program? And include, please, why this college system, 
which has 60 percent Hispanic students in this area, has not 
been able to get the designation of HSI, so that you could 
participate in federal investment as other HSIs throughout the 
country?
    Mr. Kinslow. Okay. Thank you. I will take the latter part 
of your question first, which is why we have not attained HSI 
status up to now. Our district started in a very unusual 
manner. We were born from the AISD school system, and without a 
local tax base, and so for the first many years of our 
college's history we operated in abandoned high school 
facilities and low-cost rental properties that we were able to 
achieve. So we had, up until 1985, no local revenue stream 
through local taxes to help us cope with growth.
    And because of that, we were behind the curve in terms of 
facilities to be able to meet the capacity before us for 
growth, and so we have only, really through the last 15 years, 
had a very ambitious building program. We now have seven 
comprehensive campuses that we own.
    But instructional capacity remain a big issue in our 
district, and so for us we have the challenge of serving, 
again, a very large geographic area about the size of New 
Jersey. And out of 30 independent school districts that 
comprised that territory, only four are actually in-district 
tax-paying members for the community college.
    So our capacity issues are linked very strongly to our need 
to expand the actual size of our taxing district and----
    Chairman Hinojosa. Do you have any bonds that are possibly 
under consideration for additional funding for buildings?
    Mr. Kinslow. Yes. In fact, we just opened a new campus this 
past fall, the South Austin Campus, which has a very large 
population of Hispanic and African-American students, opened 
that campus with 2,300 students. We also just opened a new 
building, which more than doubles the instructional capacity at 
our Cypress Creek campus.
    We are also very excited, you may have heard on the news 
today, that the Round Rock independent school district has 
announced its pursuit of annexation into our district. So we 
have had a broader master plan focus on facilities and capacity 
planning aligned with our State's closing the gaps enrollment 
target.
    Chairman Hinojosa. Since your seven campuses are nearing 
capacity, as you are saying, and you project a need for 
additional faculty and staff as well as funding for 
infrastructure, how important will Title III funds be in 
helping the district's future growth?
    Mr. Kinslow. It is very important. We have to take 
advantage of all of the opportunities to better align the 
planning, aligned with the growth projections, not only in 
Austin, but throughout this region. And because we will always 
be an institution that has some limitations in terms of our 
taxing capacity, we operate on a much leaner budget than is 
typical of urban community college districts.
    So we view Title III and Title V as tremendous 
opportunities for us. You asked about the College Connection 
Program. That is largely responsible for our enrollment growth, 
but we have also done other things as a district. We have 
looked, again, at how can our district plan for the expansion 
of facilities, as you are pointing out, over a period of time. 
And our board has adopted a long-term master plan that 
strategically----
    Chairman Hinojosa. Thank you. We will come back to you 
later on.
    Mr. Kinslow. Thank you.
    Chairman Hinojosa. Mr. Scott, most of the targeted 
institutions always request additional funds for 
infrastructure, yet you reported that to a lesser extent 
grantees reporting using grant funds to improve their fiscal 
stability. Should the institutions place a higher priority on 
fiscal stability instead of recruiting students and helping 
them with what Congressman Grijalva said was so important in 
his State, and that is the accessibility and affordability for 
those students?
    Mr. Scott. Mr. Chairman, as you know, the Title III and 
Title V provide institutions with a broad range of flexibility, 
so I think it will be a policy decision as to whether you will 
continue to provide that range of flexibilities. I think given 
the limited federal resources that are available for Title III 
and Title V programs, though, it is important that grantee 
institutions continue to demonstrate results, and that they are 
effectively and efficiently using the funds that they received.
    I think as we point out, it is appropriate that they 
continue to make and demonstrate progress in the areas of 
improving institutional management and improvement fiscal 
stability. And those are two areas that the Department of 
Education is currently studying.
    Chairman Hinojosa. One of the times you appeared before 
Congress in Washington, you reported that in 2004 GAO 
recommended that the Department of Education report better 
monitoring and assistance to institutions. Why haven't they 
implemented those recommendations more fully?
    Mr. Scott. Well, the Department has made some progress, as 
we say in our statement today, in these areas. I guess as I 
said in my oral statement, though, it is important that they 
continue to demonstrate a commitment to continual improvement 
in this area. It has been three years since that prior GAO 
report, and, as we have recently spoke with them, it is very 
clear that while they have made some progress they continue to 
need to take steps to fully implement the recommendations that 
we previously made.
    Chairman Hinojosa. I am going to yield myself another two 
minutes, because I wanted to ask Dr. Earvin a question. Your 
national institutions earned lower costs in both public and 
public sector. However, we are now faced with rising college 
costs throughout the country. Does your institution have a 
counseling program focused on reducing the debt burden of 
college students?
    Mr. Earvin. Yes, we do. That is one of the key components 
of our financial aid program, both at the outset of the 
students' matriculation throughout his or her studies, and then 
again at each time a loan may be acquired to continue the 
process. We also have exit counseling to make sure that 
students are apprised of the information and are fully 
knowledge of what their options are.
    Further, we work closely with students through our 
financial aid office and our counseling office to make sure 
that the student has explored all those options that are 
available for support for his or her education that would not 
include the borrowing of funds.
    Chairman Hinojosa. When was the last time that you all 
brought a financial literacy education program specialist to 
your campus to help students and parents?
    Mr. Earvin. Last semester.
    Chairman Hinojosa. Excellent. Well, that is definitely one 
that is growing. And I happen to be Co-Chairman of the 
Financial Literacy Education Caucus, and we have grown to over 
70 members in Congress with that. But what is important is the 
Jumpstart Program, which is a coalition of banks and 
government-secured entities like Sallie Mae, Fannie Mae, 
Freddie Mac, as well as the Federal Reserve and the U.S. 
Treasury are all part of the coalition.
    And they are promoting those in eight languages, so that we 
are sure to also address student--I mean, the parents, and that 
they can better understand that the students can indeed borrow 
money and pay it back after they got their associate degree or 
their bachelor's degree.
    I am going to yield to my fellow colleague here, 
Congressman Grijalva, for his questions.
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    And before I start the questions, as a commentary, Dr. 
Earvin, you couldn't have a better advocate than Danny Davis on 
that committee and in Congress. He explained to me early on in 
the process--I happened to sit next to him, so I have to get 
explained to a lot. [Laughter.]
    The issue of predominantly black colleges, and we shouldn't 
get--and it why it was--not to get into a situation, your 
funding issue in 323 being the point. That you shouldn't get in 
the situation of robbing Peter to pay Paul, and I thought that 
was--and he continues to advocate that, and you couldn't have a 
better person----
    Mr. Earvin. Thank you.
    Mr. Grijalva [continuing]. Working that side.
    Dr. Kinslow, let me just--we are working at the same time, 
and I think it is a good time to be working on this 
reauthorization while we are working on the reauthorization of 
No Child Left Behind. There is a connection, so I don't think 
we speak about it often enough, but there is a very strong one.
    And one of the things that I was impressed, and you can 
expand just a little bit, ACC's summer youth programs that 
are--one of the areas that I am kind of focusing in on No Child 
Left Behind is the middle schools. I think it has kind of been 
a forgotten land out there in this whole process. But your 
outreach efforts, the awareness, this is what college can be 
about. Could you just expand a little bit both--not so much 
what programmatically you are doing, but what the reception has 
been from families, staff, and kids?
    Mr. Kinslow. It has been very positive. We have taken the 
approach that our college wants to be a leader in the P16 
reform efforts, and so we think a lot of the success of the 
bridge programs is rooted in sustained quality partnerships 
with all of the independent school districts in the region.
    What we did this summer was to bring together within our 
institution a broader group of people to focus on all of the 
different initiatives that we already had in place and said, 
``How can we ramp that economy of scale up to impact more 
people and reach more?'' And so we brought together groups like 
our traditional outreach ambassadors with our early college 
start and college connection folks, with our cashiers, our 
accounts payable people, anybody that can touch a student in 
any way and said, ``How can we take all of these programs and 
weave a stronger tapestry?''
    We looked specifically at elementary and middle schools 
with high proportions of minority students and high proportions 
of economically disadvantaged families. What we are doing this 
summer is more of those programs than we have done in the past, 
larger numbers, but we have also added components, for 
instance, for parents, where we are trying to also reach that 
population and provide services to them that help them 
understand things they can do at home to encourage their kids 
to think of themselves as college worthy, college able.
    And we are also looking at ways that we are going to expand 
the outreach also to those parents. That is another population 
group that is typically underemployed as well, and so the 
response has been very good throughout the area. And, again, it 
is taking it out to the community rather than waiting for them 
to come to our doors.
    Mr. Grijalva. If you wouldn't mind down the road soon to 
submit to the committee a program outline, I think that would 
be very important.
    Mr. Kinslow. Love to do that.
    Mr. Grijalva. In Arizona, unfortunately, we have a State 
law that cuts out opportunity for young people that have 
successfully finished high school, done well, didn't get in 
trouble, but because of some choices their parents made in 
terms of coming to this country, they are caught in this limbo. 
And so they have no access, because they have no financial 
assistance, and we just talked about affordability being key to 
this whole process of getting kids--getting young--not just 
kids, community college is about all ages.
    So you have this group, in terms of recruitment, in terms 
of enrollment, how does that affect you if you have the same 
situation that we have? In Arizona, 11,000 students will not be 
eligible? So I don't know what the figures could be here.
    Mr. Kinslow. That is a factor that affects use at times. In 
Texas, children of adults who have come to this country----
    Mr. Grijalva. Undocumented?
    Mr. Kinslow [continuing]. Undocumented workers are able to 
quality for the in-state tuition rate. That is still extremely 
expensive. One of the things that we found, too, in going out 
with our outreach efforts is that many times families, as you 
are describing, are reluctant to provide or take advantage----
    Mr. Grijalva. Oh, absolutely.
    Mr. Kinslow [continuing]. Of the financial aid counseling, 
the scholarship counseling, because they are afraid that that 
will lead to a problem related to their residency and their 
ability to stay here. And so it is something that we try to 
reassure people that we are going to follow the laws, but that 
we are going to--that there are options for students. We are 
also trying in our region to expand private giving to assist 
students.
    Mr. Grijalva. Mr. Hinojosa is going to gavel me in a 
second, but----
    [Laughter.]
    Yes, I appreciate that, and that is why I think while this 
immigration debate rages, divisive, ugly, rages across this 
country, many of us, including the----
    Chairman Hinojosa. Mr. Grijalva, if I may interrupt you, I 
will yield another two or three minutes to you, provided----
    Mr. Grijalva. One minute.
    Chairman Hinojosa [continuing]. Provided that you allow me 
the point of personal privilege of introducing some VIPs who 
are here in our audience. And I will start first with all of 
the college students that walked in a few minutes ago. Would 
you please stand and be recognized? [Applause.]
    I am delighted to see you here in the audience and to hear 
this Congressional hearing. And I also want to take the 
opportunity of introducing--acknowledging the presence of 
Austin Mayor Will Wynn, who has also been with us, as well as 
the College ACC Board Member Veronica Rivera, and also would 
like to say that the Commissioner of Higher Education 
Coordinating Board--Ray, would you please stand up and let us 
applaud all of you for being here today. [Applause.]
    After the questioning, I am going to invite the 
Commissioner of Texas Higher Education Coordinating Board to 
make statement, because he represents all of the colleges and 
universities in our great State of Texas, and I think that it 
will be a wonderful opportunity for us to add to the record his 
statement, because he is certainly the general with the most 
stars on his shoulder in higher education. And we thank you for 
coming to this hearing.
    Mr. Grijalva, you may continue.
    Mr. Grijalva. One minute, and I think that is why the 
urgency, despite all that is going on in immigration and the 
debate that is raging right now, and will continue to rage for 
the foreseeable future. That is why we--nothing is accomplished 
this year in terms of education, because the Dream Act can be 
enacted, so that we can extend that opportunity to a whole 
bunch of young people that deserve it and earned it. But 
because of an involuntary choice on their part, they are 
trapped.
    Mr. Kinslow. Exactly.
    Mr. Grijalva. I yield back.
    Mr. Kinslow. Thank you.
    Chairman Hinojosa. My first question to Ms. Olivia Vanegas, 
your target population, as you indicated in your presentation, 
is low income, and Arizona is experiencing around 900,000 
people living below poverty level. This question may not be 
necessary, but tell us, how does your institution keep college 
costs at a minimum in order to provide much needed 
opportunities for higher ed?
    Ms. Vanegas-Funcheon. Well, our tuition is very low for one 
thing, and our students--repeat the question again. I am sorry.
    Chairman Hinojosa. How do you keep college costs at a 
minimum in order to provide an opportunity to higher education 
to those you represent?
    Ms. Vanegas-Funcheon. Yes. It is a challenge, definitely, 
but we do--for instance, the biggest challenge is hiring 
people. The salaries are hard--the competition is high, and so 
it is a challenge. But we do manage the money very well. We 
also don't provide all of the--we do not have all of the 
facilities that, you know, a college should have, but we 
definitely do--we wear many hats, each of our faculty and 
staff.
    So we get full use of them, and so as far as keeping the 
cost down we definitely, you know, do do that. And as far as 
all of the physical, such as transportation vehicles, and all 
of that, we are still in need of the----
    Chairman Hinojosa. We will try to help you in this 
reauthorization act. I want to proceed and ask you a question, 
because last week while we were in session I was visited by the 
National Administrator of NASA, and he was talking about the 
acute shortage that we have of engineers and mathematicians and 
scientists. And he was asking if we could increase our 
financial investment in trying to recruit minority students, 
including Native Americans.
    So I am very supportive of the new stem emphasis for 
enhancing student careers, because there is a larger pot of 
money available to do that. How has your Title III project 
allowed you to do this in your cultural context?
    Ms. Vanegas-Funcheon. Well, definitely, it is available. 
The lab--we have as science lab available there at home, close 
to our students. They don't have to travel to Tucson or some 
other college to get that exposure to science and math. But we 
also do do a lot of outreach at the lower levels.
    We have bridge programs during the summer for our lower 
grade levels, and fifth grade, and we also are working with the 
University of Arizona, where we have faculty from--or students 
that are interns coming to learn how to teach in the college 
environment. But, again, we are working towards enriching that 
stem program.
    So we have had some very good faculty members. They are 
committed to the students, and they work with the community in 
the community. And one example is we just received equipment 
for GIS, which is very much the study of the land. We have a 
vast amount of land, and so that--most of our teaching needs to 
be relevant to the environment that we are in, so----
    Chairman Hinojosa. Well, if I may interrupt you----
    Ms. Vanegas-Funcheon. Yes.
    Chairman Hinojosa [continuing]. You earlier talked about 
the great need to provide the transportation costs for your 
students. Have you considered investing more in distance 
education?
    Ms. Vanegas-Funcheon. Yes. And that is another plan that we 
have. We definitely want to create a media center. One of the--
we have two sites that we are building the campus on--on the 
west side, which is most of the remote areas, we want to build 
a media center and also with that an entrepreneur--combination 
of entrepreneur and media center, so that all of the 
surrounding villages have access to not only the technology but 
definitely all of the learning environment.
    And then, also, with that to build the economic base in the 
area, because the community has for many years been very 
supportive of building the economic corridor right in that 
stretch. But the basis of stem will lead to many careers. Right 
now, many of--like our nursing home is understaffed. We need 
nurses. Our GIS, many of the Planning Department for the 
Nation, many of them are older, and they will soon retire, so 
we need to replace them.
    So, yes, the facilities will definitely increase the--or 
with the remoteness of the satellite campus, and the 
technology, the distance learning, we can reach many of our 
students that are out there.
    Chairman Hinojosa. Thank you. We want to work with you and 
see how we can help you achieve those goals, and to help 
students access higher education.
    I am going to have to move on, because time is running out 
on us. I want to also take advantage of this opportunity to 
recognize and acknowledge the presence of two other Board 
members who are present, Alan Kaplan, Board Member of ACC, and 
Dr. James Hill, Huston-Tillotson University Board Member. Would 
you please stand and be recognized? [Applause.]
    Thank you.
    Congressman Grijalva, you may proceed.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman.
    Dr. Earvin, let me--I think in your testimony you speak to 
the lack of federal investment in the capital financing 
projects at historically black colleges and universities with 
regard to those institutions. In your particular institution, 
what capital financing have you received since, say, '92?
    Mr. Earvin. We have not participated in that program. One 
of the main reasons why we have not is because the requirements 
for our participation are so onerous that we found not in our 
best interest to pursue them. Further, the provisions of the 
program that share the responsibility for institutions that may 
not be able to maintain their financial responsibilities is 
shared among all of the institutions. And given that, we have 
opted not to do that, not to participate.
    Mr. Grijalva. Yes. I asked the question because I think in 
the foreseeable future that the goal of competitiveness is 
going to require the kinds of facilities that bring 
institutions to that level. We saw it today on the tour, you 
know, just on the health side here, that you have to have the 
best and the up to date. And so I asked that question because I 
think that is critical in the future, and there might be 
something we can do regarding that.
    Mr. Earvin. I think if we could relax or modify some of the 
rules under which that program operates there would be greater 
participation and that we could still have the same level of 
accountability. We are looking--at my own institution at ways 
of expanding our physical plant and have looked at a number of 
means of financing that, and the Capital Finance Program was 
not one that ended on the favorable list. So I think that is 
the things that we recommend in way of amendments that would 
assist us.
    Mr. Grijalva. Thank you. And this is kind of a general 
question for both Ms. Funcheon and Dr. Kinslow, and it has to 
do with--we are having a hearing in No Child Left Behind about 
high schools and the staggering statistic that something like 
53 percent of the dropouts in this nation are concentrated in 
15 percent of our high schools. I never heard that before, but 
we do have and continue to have, especially in our affected 
communities, a significant dropout rate.
    And so let us talk about retrieval a little bit, GED, and 
how that interrelates with the community. And your experience--
and in Indian country, that dropout rate is staggering, as you 
well know. And so both your perspectives on that probably would 
be it for me.
    Mr. Kinslow. Okay. Thank you. In all of our planning, we 
have tried to look at the issues that are before us regionally 
in Texas as not solvable exclusively from a concentration on 
independent school district reform, which is where most of the 
research right now appears to be focused, but also saying that 
we have to be highly focused on looking at the adult population 
as well, the ones that either dropped out or stopped out, or 
for whatever reason need to be enticed into higher education.
    One thing that we have done with our school is, one, we 
provide funding for adult education about the level of just 
state and federal grants. So our institution provides about 
$1.1 million of our local monies to assist us in being able to 
expand adult ed/GED----
    Mr. Grijalva. Okay.
    Mr. Kinslow [continuing]. Kind of outreach. The other is 
that we took our very successful college connection program 
that has been paying off high yields of increased high school 
graduates coming to us, and modified that program and said, 
``Let us look at our own populations of GED students and adult 
ed students.'' So we have a modified version of that program.
    Out of our last group of graduating GED students, 56 
percent of them are now today enrolled in college credit 
courses as a result of that outreach. So we think that 
sometimes it is, again, back to that issue of aligning all of 
the things that we are doing within our own institutions to a 
higher purpose of saying we can reach more.
    Mr. Grijalva. If you wouldn't mind.
    Ms. Vanegas-Funcheon. I would sum it up with we have a very 
large scope of work. We work at the very start, the younger 
students. GED, we have increased the number of GED instructors, 
so that they can travel out to the villages. We also offer pre-
college courses. There is a lot of adults that never had the 
opportunity to either graduate from high school, and they have 
had to relearn how to go to school again.
    So we have a lot of--we have a--we are doing an 
experimental pilot program where--it is Prep 101, and it is 
just to prepare the students, the older students and the 
younger students, so that they can take college courses. And 
then, we offer our two-year college courses.
    And then, beyond that, we have three big grants to also 
increase the number of Native American teachers, and that has 
been done in collaboration with the University of Arizona, a 
total of--the latest three is 51--for 51 teachers or 
administrators. And we have had two other grants before that 
one for 20, and one for 12, so we have been graduating 
teachers.
    It is important--one of the things that--in the high 
schools is we have to have quality teachers. What we are 
missing is science teachers, technology teachers. There are 
teachers out there trying to do that work that is not their 
field. So we definitely need teachers.
    So the college has a very broad scope of work. That is why 
I said we wear many hats in trying to----
    Mr. Grijalva. Thank you.
    Ms. Vanegas-Funcheon [continuing]. Accomplish all of that.
    Mr. Grijalva. Thank you. And I think the broad scope for 
community college is it is--you know, for me, they are the most 
accessible and nearest to a community that can react the 
quickest to--as changes happen in a community. And community 
colleges have a tremendous responsibility, and part of it is to 
deal with the dysfunction in the pipeline, whether it is 
dropout, remediation, adult basic education, but it is probably 
one of the few institutions that can--or the only one that can 
provide that.
    Appreciate it very much, and I yield back, Mr. Chairman.
    Chairman Hinojosa. I am very pleased that the issue of 
college student loans has surfaced here in the last two months 
in Washington, and that many of those who provide monies for 
student college loans have come together last week and agreed 
to follow the recommendations of Congress and the gentleman 
from New York--Cuomo--in accepting the Code of Ethics that has 
been recommended, and that we can be able to restore the 
integrity of that program, which is so important that has grown 
to over $85 million, one that is so necessary to the minority 
community in order to help our students go to college.
    And I am going to continue to work closely with Chairman of 
the whole committee, George Miller, to be sure that we get all 
this done as we look forward to concluding the Higher Education 
Act reauthorization, hopefully in October.
    And with that, I am going to ask unanimous consent to put 
into the record two statements that have been presented here by 
people in the audience. One is the statement by Sue McMillin, 
President and CEO of the Texas Guaranteed Student Loan 
Corporation, and I also ask that the second document, which was 
presented by the Texas Association of Student Financial Aid 
Administrators, the statement by Kathy Bassham, President of 
the Texas Association of Student Financial Aid Administrators.
    [The prepared statement of Sue McMillin follows:]

Prepared Statement of Sue McMillin, President and CEO, Texas Guaranteed 
                     Student Loan Corporation (TG)

    Mr. Chairman and Members of the Subcommittee- Welcome to Texas and 
to the heart of our great state--Austin.
    Thank you allowing me to enter this statement into the record 
today. My statement focuses on a report TG completed for, and at the 
request of, the recently completed 80th Texas Legislature concerning 
financial barriers to postsecondary education.
    While this hearing concerns Title III--Institutional Aid and Title 
V--Developing Institutions of the Higher Education Act, the provision 
of adequate student financial aid is a crucial, if not, the most 
important, factor in ensuring academically prepared and informed 
students from economically disadvantaged backgrounds are able to 
attend, persist, and graduate from college.
    Therefore, the findings and recommendations included in Ready, 
willing and unable: How financial barriers obstruct bachelor-degree 
attainment in Texas, while applicable to the general topic of financial 
access to postsecondary education, also are relevant to the topic of 
today's hearing. This report was used widely as a resource during the 
recently completed state legislative session and was cited on the floor 
of the U.S. House of Representatives during the consideration of HR 5--
the College Student Loan Relief Act.
    The United States is losing high-paying jobs to countries that 
produce a more reliable supply of college graduates in math and 
science. Texas faces its own economic slowdown if it is unable to 
graduate more students with bachelor's degrees. The state has been 
addressing many of the obstacles students face in earning a four-year 
degree. Outreach efforts and public relations campaigns have encouraged 
students to consider going to college, while changes in curriculum have 
produced a much larger pool of college-ready high school graduates. 
TEXAS Grants have made college more affordable, but due to projected 
funding shortfalls, the program's reach is limited and net prices 
remain high, undermining many of these well-intentioned college 
promotion efforts.
    Ready, willing, and unable looks at the barriers preventing college 
qualified Texas students from completing college and the extent to 
which this failure is due to financial barriers.

Major findings
    An estimated 47,000 bachelor's degrees may be lost annually in 
Texas due to financial barriers. This represents the number of college-
qualified, low-, moderate-, and middle-income students among 2004 Texas 
high school graduates who could have earned a bachelor's degree if they 
were able to go to college at the same rates as their higher-income 
classmates.
    The Texas enrollment rate for economically disadvantaged college-
prepared high school graduates was 20 percent less than their equally 
qualified but financially secure peers.

Other key findings
            Academic preparedness
    Texas high schools are graduating both more students and more 
college-qualified students than ever before.
    Between 1996 and 2004, the percentage of students who graduated 
from high school increased 10 percentage points to 85 percent.
    The percentage of high school graduates who completed the 
Recommended or Distinguished high school curriculum increased even more 
dramatically from 39 percent of graduates in 2000 to 68 percent of 
graduates in 2004.

Price of education
    Although total expenses at public four-year Texas schools are 
slightly less than the national average, the median family income in 
Texas is a full 10 percent lower than the national median.
    During the 2003-2004 academic year, students at Texas four-year 
public schools faced a median net price of $12,345, and two-year school 
enrollees encountered a median net price of $7,114. At four-year 
private colleges, students were confronted with a median net price of 
$18,182. Net price, which is the total cost of attendance minus grant 
and scholarship aid, must be paid through savings, income, or loans. 
The median family income in Texas was $49,769 in 2005.

Financial aid
    Only nine percent of Texas undergraduates received any state grant 
aid in AY 2003-2004 and loans to students represent two-thirds of all 
student aid in Texas.
    The average Federal Pell Grant award in Texas has grown only 
moderately from $2,035 in AY 2000-2001 to $2,501 in AY 2004-2005.
    Texas students rely on student loans at a rate more than 15% higher 
than the national average.
    Ninety-six percent of these loans were made under the Federal 
Family Education Loan Program (FFELP) with a Median Borrower 
Indebtedness (MBI) of $8,893 in FY 2005.

Other risk factors
    Financial obstacles exacerbate the negative effects of other risk 
factors on degree attainment. Seventy-five percent of Texas 
undergraduates have at least one of seven risk factors identified by 
the U.S. Department of Education.
    The average of Texas undergraduates who have at least one risk 
factor is five percentage points higher than the national average. Some 
factors include delaying college enrollment, attending part time, and 
working full time while enrolled.
    Seventy-five percent of Texas undergraduates work while in school 
and 35 percent work full time. After six years, 52 percent of 
undergraduates who work full time will likely leave college without a 
degree.
    Higher education can produce well-educated, highly skilled citizens 
who can make Texas a safer, more financially secure place to live. To 
accomplish this goal, college must be made accessible to capable, well-
prepared students regardless of the level of their parents' income.
TG's Support of Title III and Hispanic-Serving Institutions
    Beyond our resources in research, TG has actively supported the 
work of Title III and Title V institutions. Our work spans pre-college 
outreach, default prevention and debt management, and student 
retention. Specifically, TG created a Hispanic Higher Education 
Initiative and supports Texas Historically Black Colleges and 
Universities Default Management Consortium.
    As a part of these activities, TG has established new partnerships 
with two national Latino-based organizations with the goal of working 
collaboratively to increase postsecondary education access and success 
among Hispanics. These organizations include Excelencia in Education 
and the American Association of Hispanics in Higher Education (AAHHE).
    Moreover, TG provides need-based financial aid through the Charley 
Wootan Grant Program and the TG Public Benefit Grant Program to help 
students from low-and moderate incomes families afford postsecondary 
education.
    TG has established three areas of focus for efforts related to the 
Hispanic Higher Education Initiative: educational partnerships, 
competitive grants, and need-based aid.
Educational alliances
    Two new educational organizations will add to the strength of TG's 
existing partnerships in serving the needs of Latino students and 
families:
    Excelencia in Education, received a TG grant to conduct a 
comprehensive institutional assessment and best-practices plan based on 
the work of six Texas-based HSIs: The University of Texas--Pan 
American, South Texas College, The University of Texas at Brownsville, 
Texas Southmost College, The University of Texas at El Paso, and El 
Paso Community College.
    The partnership will involve teams of senior-level administrators 
at each of the HSIs. TG will work with the organization throughout the 
assessment process and will make available the findings and 
recommendations that result. The project already has seen success as 
reflected by the level of collaboration among campus leaders and their 
desire to invite two additional border HSIs, Texas A&M International 
University and Laredo Community College, to become full participants of 
this project.
    AAHHE received a TG grant to conduct the first-of-its-kind Hispanic 
Student Retention Institute, produce several scholarly and best-
practices research papers on Hispanics in higher education, and provide 
fellowships for graduate students to participate in AAHHE efforts and 
discussions.

Competitive grants and need-based aid
    TG's Public Benefit Grant Program--our philanthropic program--has 
awarded $5 million over two fiscal years to 55 institutions and 
community-based organizations. In FY 2007 alone, nearly $2 million was 
awarded to HSIs and other organizations that intend to provide 
outreach, student retention, and grant aid primarily to Hispanics.
    Our public benefit program was established as a part of TG's 
mission to enhance postsecondary education access, persistence, and 
retention as a part of our state legislative mandate. The program is 
offered on a case-neutral basis, with awards being made through a 
merit-based process and is never operated in a manner to obtain or 
encourage FFELP business for TG.
    In addition, last year TG award approximately $210,000 in Charley 
Wootan Grants to an estimated 21 Hispanic-serving Institutions for the 
current academic year.
    With respect to HBCUs, TG has focused its support of Texas' eight 
HBCUs in the areas of student loan delinquency and default prevention. 
TG has provide grant funding, as authorized under section 422(h) of the 
Higher Education Act, to seven HBCUs to support their engagement of 
Independent Third Party Consultants in default prevention. These HBCUs 
created the Texas HBCU Default Management Consortium, which works with 
TG to provide members with training efforts and venues for sharing best 
practices.
    In 2001, the consortium produced a report titled Breaking New 
Ground, which describes a model encompassing effective management 
partnerships and default aversion strategies/best practices to lower 
default rates and maintain academic persistence and retention of 
student borrowers. This is an ongoing enterprise which continues to 
this day.

Conclusion
    TG continues to use its success as the Texas FFELP designated 
guarantor and administrator to support other initiatives and programs 
designed to increase the participation of historically underrepresented 
populations in postsecondary education. We strongly believe that this 
is a part of our mission.
    As such I strongly urge the Subcommittee, as you proceed to develop 
your recommendations for the reauthorization of the HEA, to recognize 
the important contributions of the FFELP, and the guarantors, lenders, 
and schools that it includes, to supporting programs that benefit 
students, families, and, ultimately, society.
    I also urge the Subcommittee to do all it can to revitalize the 
need-based Title IV programs along the lines recommended by the Federal 
Advisory Committee on Student Financial Assistance in its 2006 report 
Mortgaging Our Future: How Financial Barriers To College Undercut 
America's Global Competitiveness.
    Again, thank you Mr. Chairman for the opportunity to submit this 
statement to you today. I, and my staff, will be pleased to provide the 
subcommittee with additional information on these and other relevant 
issues affecting student access to, and successful completion from, 
postsecondary education as the reauthorization of the HEA continues.
                                 ______
                                 
    [The prepared statement of Kathy Bassham follows:]

 Prepared Statement of Kathy Bassham, President, Texas Association of 
             Student Financial Aid Administrators (TASFAA)

    Mr. Chairman and Members of the Subcommittee--Welcome to Texas.
    My name is Kathy Bassham. I am Director of Student Financial Aid at 
Weatherford College in Weatherford, Texas. I am also the current 
President of the Texas Association of Student Financial Aid 
Administrators (TASFAA). TASFAA is a voluntary organization composed of 
student financial aid professionals from virtually all of Texas' 
postsecondary educational institutions.
    All of Texas Title III and Title V institutions are represented in 
TASFAA and TASFAA recognizes the crucial role these institutions play 
in insuring postsecondary educational opportunities are available to 
those populations that have been historically underrepresented in our 
colleges and universities.
    We commend you, Mr. Chairman for successfully advocating the 
implementation of Title V into the Higher Education Act and building 
upon it throughout your tenure in the congress up to your authorship 
and introduction of HR 451 and sponsorship of S 565--The Next 
Generation Hispanic-Serving Institutions Act. We support this 
legislation and invite you to use TASFAA as a resource to insure 
passage of this legislation.
    As a student financial aid association, TASFAA believes 
passionately that the provision of adequate student financial aid is a 
crucial, if not, the most important, factor in ensuring academically 
prepared and informed students from economically disadvantaged 
backgrounds are able to attend, persist, and graduate from college.
    This is especially true in Texas, in which the demographics tell us 
that before the middle of the century, the state's population will be 
primarily Hispanic and without adequate student financial aid, many of 
these children will not obtain a college education and the social and 
economic well-being of the State will suffer as a result.
    The Texas Legislature commissioned a report in 2005 to be submitted 
to the 80th Texas Legislature in 2007 on the topic of the demand for 
student financial aid in Texas.
    The findings and recommendations included in Ready, Willing & 
Unable, published by the Texas Guaranteed Student Loan Corporation, are 
relevant to the topic of today's hearing, and, go to the whole thrust 
of the direction of the reauthorization of the Higher Education Act, 
e.g., enhancing college affordability, the provision of information, 
simplification of the application and delivery system, etc.
    The report looks at the barriers preventing college qualified Texas 
students from completing college and the extent to which this failure 
is due to financial barriers.
    The report finds that 47,000 bachelor's degrees may be lost 
annually in Texas due to financial barriers; Texas' enrollment rate for 
economically disadvantaged college-prepared high school graduates was 
20 percent less than their equally qualified but financially secure 
peers; Texas high schools are graduating both more students and more 
college-qualified students than ever before; although total expenses at 
public four-year Texas schools are slightly less than the national 
average, the median family income in Texas is a full 10 percent lower 
than the national median; only nine percent of Texas undergraduates 
received any state grant aid in AY 2003-2004 and loans to students 
represent two-thirds of all student aid in Texas; financial obstacles 
exacerbate the negative effects of other risk factors on degree 
attainment; seventy-five percent of Texas undergraduates have at least 
one of seven risk factors identified by the U.S. Department of 
Education: while much has been done by state and federal policymakers 
to improve high school academic preparedness and outreach and awareness 
efforts, much still needs to be done to adequately fund need-based 
student financial aid.
    Mr. Chairman, as your Subcommittee continues to receive input and 
develop reauthorization legislation, TASFA urges you to consider the 
impact of the current Title IV student financial aid programs in 
providing access to postsecondary education. Texas, unfortunately, is 
far more reliant on these programs than most other states, and more so 
than the other 10 most populous states. We recognize that we have much 
to do at the state level if we are to get serious about CLOSING THE 
GAPS.
    However, the reality is that more than 85% of the direct student 
financial aid awarded annually to Texas postsecondary education 
students comes from the federal programs, and two-thirds of this 
assistance comes from the Federal Family Education Loan Program 
(FFELP). Anything that upsets the flow of federal student aid funds 
through these programs potentially harms access to the populations most 
in need of assistance at all institutions, but in particular, Title III 
and Title V schools.
    TASFAA supports all of efforts, in particular HR 890--The Student 
Loan Sunshine Act--to improve transparency in the student loan process 
and urges the congress and Department of Education to adopt clear 
policies that protect both student loan borrowers and institutions. The 
use of ``preferred lender lists'' in Texas has been a very valuable 
student loan default prevention tool--protecting the borrower, 
institution, and taxpayer--and the practice needs to be continued, but 
regulated.
    Finally, TASFAA urges the Subcommittee to do all it can to 
revitalize the need-based Title IV programs along the lines recommended 
by the Federal Advisory Committee on Student Financial Assistance in 
its 2006 report Mortgaging Our Future: How Financial Barriers To 
College Undercut America's Global Competitiveness.
    Again, thank you Mr. Chairman for the opportunity to offer TASFAA's 
input. The Association is at your disposal as a resource.
                                 ______
                                 
    Chairman Hinojosa. Hearing no objections, it will be done.
    I want to thank the witnesses for your presentation and 
invite you to join the audience as I bring the last presenter. 
And we want to give you a big round of applause. Thank you. 
[Applause.]
    Commissioner Ray Paredes, we invite you to come before the 
members of Congress, and give us the opportunity to have you 
give a statement as to how Congress can include the concerns 
that you have in this reauthorization of Higher Education Act 
reauthorization, so that we can include it into the record here 
in this great capital city of Austin.

   STATEMENT OF DR. RAY PAREDES, COMMISSIONER, TEXAS HIGHER 
                  EDUCATION COORDINATING BOARD

    Dr. Paredes. Well, sir, thank you very much for the 
opportunity to speak before you this morning. As you know, we 
have a crisis in this country in terms of the funding for 
public higher education. The support for public higher 
education as a percentage of the overall budgets of both 
community colleges and four-year universities has continued to 
decline.
    Thirty years ago, for example, it was very typical that a 
four-year public university would see approximately 75, 80 
percent of its budget--even more--come from state sources. Now 
we see that increasingly for many public universities the 
amount of state support has declined to about 20 percent or 
even less of operating budgets.
    There has been--the response of universities has been to 
both try to seek larger levels of support from the Federal 
Government, from private donors, but most significantly from 
the students themselves. And what we have seen dramatically in 
this country is an increase in the cost of going to higher 
education.
    The cost of higher education has increased in this country 
more steeply than any other sector of the economy except for 
health care, and we find that higher education is becoming less 
accessible to the poorest students and is becoming a very 
significant financial burden for middle class students and 
their families.
    I would point out that here in Texas, to give you an 
indication of our situation, historically Texas has been a low-
cost, low-support State. We kept our tuitions low, and because 
tuitions were low we offered very little in terms of State 
financial aid. Now we see that Texas is approaching the 
national average in the overall cost of higher education, but 
our State resources for support of students, either in terms of 
grants or in terms of loans, have not increased commensurately.
    So Texas is one of the states that has the heaviest 
reliance on federal support for our students. Approximately 80 
percent of student financial aid for college students in Texas 
comes from federal sources, which is much higher than the 
national average. So we are particularly concerned about what 
happens in Washington, both in terms of supporting students 
directly and whatever resources the Federal Government can 
provide our institutions to keep their doors open and to 
maintain high quality educational opportunities.
    I applaud your particular interest in community colleges 
and what is going on in community colleges. Here in Texas, we 
project that somewhere between 70 and 80 percent of low income, 
first generation students who go on to higher education will 
begin their higher educational experiences in community 
colleges. And so we need to make sure that we do whatever we 
can, that community colleges have adequate resources, have 
adequate physical facilities, and have adequate means of 
financial aid for their students.
    The College Connection Program, which you have identified 
this morning, as being critical I think is evidence that we 
have a huge number of students from low income, first 
generation backgrounds who would be very interested in going to 
college if two things were occur. First of all, if they had 
information about academic readiness, academic preparation, and 
if they had information about the availability of financial 
aid.
    And the reason that the College Connection Program has been 
so successful, and why we are trying to emulate it all over the 
State, is precisely because it does those two things. It gives 
students information about academic readiness, and gives them 
information about financial aid.
    The other issue that you have called attention to, 
particularly you, Congressman Grijalva, is the issue of P16 
integration. We need to do everything we can at the state and 
the federal level to recognize that we have one academic 
pipeline. And what happens in one part of the pipeline affects 
what happens in every other part of the pipeline.
    In higher education, we cannot do our job effectively if 
the K through 12 sector doesn't send us well prepared students. 
On the other hand, the K through 12 sector can't do its job 
well if we don't send them good teachers, well prepared 
teachers. We have to work much more closely together to make 
sure that we have full academic opportunity for all our 
students.
    Chairman Hinojosa. You may continue. We are going to turn 
off the clock, because this is a grand opportunity for us to 
get into the record those things that you are talking about, 
such as pre-kinder through 16, which would take us through four 
years of higher education. And I honestly believe that Congress 
must continue to increase the amount of the Pell Grant, which 
is--hasn't been changed in four years, and is now at $4,300, 
with the authorization level of about $5,500.
    So we still have a space there that we could increase, 
provided that we had the political will and the willingness in 
Congress, to increase that because the college presidents at 
community colleges and universities speak as--speak to us in 
Washington as one of the highest priorities to be able to 
impact that affordability.
    So please continue.
    Dr. Paredes. Well, yes, sir. In relation to the Pell 
Grants, as you know, 30 years ago a Pell Grant in many states 
in this country paid almost 90 percent of the cost of tuition 
and books for students, and now the average is under 40 
percent. And that gap has been replaced with loans and 
substantial sacrifices on the parts of families. Students take 
longer to graduate because they work more, they take fewer 
courses as a way of responding to the decline in federal 
support. It is something that has reached the crisis stage.
    We now have a large number of students all over the 
country, certainly in Texas, whose career decisions are to a 
large degree influenced by the debt load that they have when 
they graduate from a college or a university. Now that the debt 
load is typically close to $20,000, we are finding that more 
and more college graduates are reluctant to go into highly 
critical professions like teaching, because they feel that they 
won't earn enough income to pay off their student loans.
    We find that particularly students of color, low income 
students, delay or suspend their plans to go to graduate 
school, once again in critical fields like engineering, 
becoming physicians, and so forth, because they don't want to 
incur great debt loads, and they feel strongly that they need 
to go to work and start paying off their student loans.
    So these are issues that we are grateful that you are 
paying attention to in Washington at a very high level.
    Chairman Hinojosa. Commissioner, I think that the states 
must not be let off the hook. I think that you made it quite 
clear that 20, 30 years ago, the monies being provided by the 
state legislatures throughout the country was a big part of the 
money that was used to run our colleges and universities.
    But they have completely shifted both public education and 
college higher education to property taxpayers and to the 
Federal Government. And I have no problem with the latter part; 
the Federal Government needs to increase the 7 or 8 percent 
that we contribute to local education agency budgets to at 
least 15 percent. If I had it my way, I certainly would support 
that.
    On colleges and universities, it seems that it just can't 
be student loans and Pell Grants and other ways of financing 
higher ed. So we need to think how we can involve those who 
need the trained workforce. If we are going to be enjoying the 
prosperity that we enjoy in this country, as we have seen the 
last 20 years, we have got to have more students going on to 
college. And the business community, it seems to me, is not 
investing as they should in higher education.
    We talked earlier in the beginning of this hearing, the 
strength of bringing these engines of economic development, and 
that is community colleges, universities, and the business 
community working together, how they can be such a strong force 
to provide fountains of employment, which is one of the 
important issues in our country.
    We need to have the--everybody sending that message to the 
state legislators and to the federal legislators, like myself, 
so that we can increase that kind of investment if we are going 
to have a trained workforce.
    I now yield to my colleague from Arizona.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Commissioner, just some observations and a request. I won't 
burden you with asking for that, because it is--it is not a 
complicated question, but I think it needs attention.
    One of the incentives is loan forgiveness as part of the 
reauthorization, and it has been kind of categorical and loose 
in the process. If there is any thought of you and your 
colleagues as to how you structure that loan forgiveness so it 
is effective, so it is reaching the people that it is supposed 
to reach, so it is generating that talent to go into 
underserved schools, Native nations, etcetera, I would 
appreciate any reaction to that.
    Dr. Paredes. Well, thank you for the opportunity to address 
this issue. Here in Texas, the Coordinating Board prefers loan 
repayment programs. We find that they are more efficient. We 
find that they also enable us to monitor the actual activity of 
the students who may have been involved in loan forgiveness or 
a loan repayment program.
    For example, let us say a student who goes into one of the 
stem fields, becomes an engineer, a loan repayment program, we 
can get reports annually or every six months from employers to 
ensure that they are practicing in the professions for which 
they received the loans.
    So we think that loan forgiveness, and particularly loan 
repayment programs, are wonderful ways to create incentives for 
students to go into high need and critical areas. We have loan 
repayment programs here in Texas that have worked well in that 
regard, and certainly there are some at the federal level that 
have also been successful.
    Mr. Grijalva. Any information, any recommendations as we go 
through this process on how to structure that would be very 
much appreciated by myself. And I am sure the----
    Dr. Paredes. I would be happy to send you, within the next 
day or two, information about our loan repayment programs, and 
some of the recommendations we made to the Texas legislature in 
the session that just ended about how to expand loan 
forgiveness and loan repayment programs.
    Mr. Grijalva. Back home the response to the lack of 
investment on the part of our State legislature in Arizona has 
been rising tuition.
    Dr. Paredes. Yes.
    Mr. Grijalva. And you compound that with you are paying 
more and borrowing more, and it is a vicious cycle that, you 
know, I--we hired someone in our office and this poor guy is 
starting to work, but he owes $65,000 before he gets done with 
his master's degree. Kind of find it ironic.
    But I want to thank you for your comments. Appreciate it 
very much.
    And then, just as a little commentary, and I am full of 
commentaries, you know, I find it really ironic, Commissioner, 
that we are making this concerted effort nationally to try to 
structure our whole visa program so that we are sure we are 
bringing in professional talent, that we have the engineers, 
the scientists, the technologists, the health providers, 
etcetera, in those specialty fields. And so that becomes a 
recruitment tool to bring people to this country.
    Good, bad, or indifferent, I also think that we wouldn't be 
finding ourselves with that shortage if we had made the kind of 
investments that you speak of in the people that we all serve.
    But anyway, besides that, I yield back, Mr. Chairman.
    Chairman Hinojosa. Thank you, Congressman.
    Before I bring this to closure, I want to say that if you 
provide us the information that is being used here in Texas, as 
you offered, I will see to it that it be added to the record of 
this hearing.
    Mr. Grijalva. Good. Thank you.
    Chairman Hinojosa. And we look forward to receiving that.
    Dr. Paredes. I would be delighted to do so. I will send it 
to you both.
    Chairman Hinojosa. Once again, I would like to thank the 
witnesses and the members of the subcommittee for a very 
informative session.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record held here in 
Austin, Texas. Any members who wish to submit followup 
questions in writing to the witnesses should coordinate with 
Majority staff within the requisite time.
    Without objection, this hearing is adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
